     Office of Inspector General
     Audit Report




         ENFORCEMENT

Compliance with Enforcement Instruments




         Report No. 2001-P-00006




             March 29, 2001
Inspector General Divisions
 Conducting the Audit:        Northern Audit Division
                               Chicago, IL

                              Eastern Audit Division
                               New York, NY

                              Central Audit Division
                               Dallas, TX

Regions Covered:              Regions 2, 5, and 6

Program Offices Involved:     Office of Enforcement and
                              Compliance Assurance

                              Regional Air Divisions

                              Regional Water Divisions

                              Regional Waste, Pesticides, and
                              Toxics Divisions
                  UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                           OFFICE OF THE INSPECTOR GENERAL
                                  NORTHERN DIVISION
                             77 WEST JACKSON BOULEVARD
                                 CHICAGO, IL 60604-3590

                                         March 29, 2001

ELECTRONIC MEMORANDUM

SUBJECT:	      Audit Report No. 2001-P-00006
               Compliance with Enforcement Instruments


FROM:	         Robert Bronstrup
               Divisional Inspector General
               Northern Audit Division

TO:            Sylvia Lowrance
               Acting Assistant Administrator for
                Enforcement and Compliance Assurance

        Attached is our final report titled Compliance with Enforcement Instruments. This audit
report contains findings that describe problems the Office of Inspector General (OIG) has
identified and corrective actions the OIG recommends. This audit report represents the opinion of
the OIG and the findings contained in this audit report do not necessarily represent the final EPA
position. Final determinations on matters in this audit report will be made by EPA managers in
accordance with established audit resolution procedures.

       Changes were made in the final report, as deemed appropriate, to address any concerns or
comments raised during the exit conference or your and Region 2’s response to the draft report.
Both responses have been included as appendices.

ACTION REQUIRED

         In accordance with EPA Order 2750, you, as the action official, are required to provide
this office with a written response within 90 days of the date of the final audit report date. The
response should address all recommendations. For corrective actions planned but not completed
by the response date, please describe the actions that are ongoing and provide a timetable for
completion. This information will assist us in deciding whether to close this report.

       We have no objection to the release of this report to the public. We appreciate the efforts
of your staff, and the staff in each region, in working with us to develop this report. Should you
or your staff have any questions, please contact me at 312-353-2486.

Attachment
ecc:   William Muszynski
        Acting Regional Administrator, Region 2
       David Ullrich
        Acting Regional Administrator, Region 5
       Gregg Cooke
        Regional Administrator, Region 6
       Paul McKechnie, DIGA, EAD
       Bennie Salem, DIGA, CAD
       Greg Marion, OECA Audit Liaison
       Scot Opis, Region 2 Audit Liaison
       Howard Levin, Region 5 Audit Liaison
       Diane Taheri, Region 6 Audit Liaison
       Ernie Ragland, OIG




                                             2

                                                Audit of Compliance with Enforcement Instruments

                             EXECUTIVE SUMMARY

The Office of Inspector General (OIG) audited facilities’ compliance with enforcement
instruments nationwide. Our objectives were to determine whether (1) regions adequately
monitored facilities’ compliance with enforcement instruments and considered further
enforcement actions if companies did not comply and (2) OECA oversaw regional enforcement
activities to ensure compliance. To accomplish these objectives, we reviewed randomly sampled
cases in the United States Environmental Protection Agency’s (EPA) Clean Air, Resource
Conservation and Recovery, Drinking Water, and Clean Water Programs. During our review, we
also identified problems with the Office of Enforcement and Compliance Assurance’s (OECA)
reporting of environmental benefits resulting from enforcement activities.

We found that:

 •	    OECA’s annual accomplishment reports did not accurately represent the actual
       environmental benefits resulting from enforcement activities. For example, an OECA
       report stated that fiscal 1999 enforcement actions resulted in the reduction of more than
       6.8 billion pounds of pollutants. However, this may have been an understatement or
       overstatement since: (1) violators did not always comply with the enforcement
       instruments and (2) data was not comprehensive. Also, OECA’s performance measures
       were not sufficient to determine the program’s actual accomplishments. Consequently,
       Congress has less useful performance data upon which to base its decision making.

 •	    Regions did not always adequately monitor compliance with enforcement instruments nor
       did they always consider further enforcement actions. Ineffective monitoring was due
       primarily to the lack of: (1) guidance detailing how or when to monitor enforcement
       instruments and (2) emphasis OECA placed on monitoring. Ineffective monitoring may
       have contributed to the regions not considering further enforcement actions for
       noncompliance with enforcement instruments. Consequently, there is a risk that violations
       continued and contributed to environmental harm or increased health risks and EPA’s
       effectiveness through deterrence was adversely impacted. For example, we found
       instances where EPA had no evidence that significant violations had been corrected.

We recommend that the Acting Assistant Administrator for Enforcement and Compliance
Assurance: (1) establish a performance measure for ensuring that facilities under a formal
enforcement action return to compliance and (2) identify a more accurate method for reporting
actual, rather than estimated, accomplishments resulting from EPA’s enforcement activities. We
also recommend that OECA issue baseline guidance for (1) monitoring violators’ efforts to
comply with enforcement instruments and (2) considering further enforcement actions when
violators fail to comply with instrument requirements. Chapter 3 includes those elements which,

                                                i
                                                                           Report No. 2001-P-00006
                                                Audit of Compliance with Enforcement Instruments

at a minimum, we believe the guidance should include. We recommend that all Regional
Administrators (1) ensure that the program offices take steps, until OECA issues guidance, to
adequately monitor violators’ actions and consider further enforcement actions when appropriate
and (2) determine the status of those cases where our review showed no evidence of violator
compliance.

In responding to recommendation 2-1 in the February 20, 2001, draft report, the Acting Assistant
Administrator stated that it is not desirable or realistic for EPA’s enforcement program to adopt a
performance measure aimed at perfection. OECA agreed that efforts to ensure the terms of
compliance with judicial instruments should be tracked as a performance measure. Beginning in
fiscal year 2002, OECA intends to have the regions update tracking systems for judicial cases to
reflect compliance schedules and EPA actions to verify violators’ compliance. OECA did not
propose tracking administrative actions in the same manner. We agree that a performance
measure aimed at perfection is unrealistic. However, we continue to recommend that a
performance measure for ensuring return to compliance with enforcement instruments be
established. While OECA currently does not intend to track compliance with administrative
instruments in the same manner as judicial instruments, we think OECA should revisit this issue in
the future.

In responding to recommendation 2-2, the Acting Assistant Administrator concurred with the
recommendations that OECA more accurately represent enforcement activities in reporting
accomplishments. OECA intends to clarify language in its future reports. These proposed
actions, when implemented, will resolve this recommendation.

In response to recommendations 3-1 and 3-2, OECA concurred that it and the regions can and
should improve tracking and enforcing compliance with requirements in enforcement instruments.
OECA has already taken steps in this regard. We concluded that OECA’s response to the
recommendations was adequate for resolution.

In response to the draft report, Region 2 indicated that they have begun the process of addressing
recommendation 3-3 and completion is expected by September 30, 2001. Regions 5 and 6 need
to provide specific corrective actions and milestone dates for addressing the recommendation.




                                                 ii
                                                                            Report No. 2001-P-00006
                                                                 Audit of Compliance with Enforcement Instruments

                                                 Table of Contents
EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v


DEFINITIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vi


1         INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

               Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

               Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

               Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


2         ACCOMPLISHMENT REPORTS NOT REPRESENTATIVE
            OF ENFORCEMENT EFFORTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

               Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

               Annual Reporting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                      Report Based on Anticipated Effects . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                      Reports Based on System That Does Not Include All Data . . . . . . . . . . . 5

               Performance Measures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

               Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

               Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

               Agency Actions and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


3         REGIONS NEED TO IMPROVE MONITORING EFFORTS . . . . . . . . . . . . . . . . . .                                            10

               Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     10

               Regional Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       11

                     Significance of Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              14

                     Impact on Goals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            15

               OECA Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         16

                     Guidance Needed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              16

               Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   18

               Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          19

               Agency Actions and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    19


EXHIBIT

1         Scope, Methodology, and Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21





                                                                 iii

                                                                                                       Report No. 2001-P-00006
                                                              Audit of Compliance with Enforcement Instruments

APPENDICES

1   Cases with No Evidence of Compliance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     26

2   Cases with Late Compliance and Timeliness of Compliance Unknown . . . . . . . . . . . . .                                        28

3   Program Summaries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          30

4   OECA Response to the Draft . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               35

5   Region 2 Comments on the Draft . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 48

6   Audit Report Contributors . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            57

7   Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   58





                                                              iv

                                                                                                      Report No. 2001-P-00006
                                             Audit of Compliance with Enforcement Instruments

                                       Abbreviations

CAA           Clean Air Act 


CWA           Clean Water Act


DOJ           Department of Justice


EPA           United States Environmental Protection Agency


Directive     Judicial Consent Decree Tracking and Followup Directive


ManualManual on Monitoring and Enforcing Administrative and Judicial Orders


OECA          Office of Enforcement and Compliance Assurance


OIG           Office of Inspector General


RCRA          Resource Conservation and Recovery Act


RECAP         Reporting for Enforcement and Compliance Assurance Priorities


Results Act   Government Performance and Results Act


SDWA          Safe Drinking Water Act


Strategy      National Performance Measures Strategy





                                             v
                                                                         Report No. 2001-P-00006
                                                Audit of Compliance with Enforcement Instruments

                                         Definitions
Enforcement Instruments - Any type of enforcement action that EPA issued which included
actions a facility was required to take. These enforcement actions included: administrative
orders, compliance orders, consent agreement consent orders, and consent decrees.

Further Enforcement Actions - Instances where EPA either assessed a penalty or referred a
case to the Department of Justice (DOJ) for a violator’s noncompliance with the enforcement
instrument.

Late compliance - Those instances where a facility did not meet the milestone due dates
contained in the enforcement instruments. In cases where EPA approved an extension on the due
date, we did not consider the facility’s actions as late if they met the new date. If a facility
submitted a document which subsequently called for revisions based on EPA’s review, we did not
consider the facility to be late unless it missed the due date for the submission of the revised
document.

Monitoring - We accepted a case as monitored based on any documented instance of EPA
actions, such as review of submitted documents, inspections, phone calls, or meetings with the
violator, to follow-up on their compliance.

No monitoring - Those instances where there was no evidence of EPA action to follow-up on a
facility’s efforts to comply with the enforcement instruments.

Significant Violation - A violation that was considered significant by EPA policy or regulations,
identified as significant in an EPA database, or determined to be significant by regional staff.

Timely compliance - Determined through comparison of the schedule, or milestone due dates,
established in the enforcement instrument and documentation of a facility’s efforts to comply.




                                                vi
                                                                           Report No. 2001-P-00006
                               Audit of Compliance with Enforcement Instruments

                      CHAPTER 1
                      Introduction

PURPOSE	     The OIG conducted this audit to determine whether (1) regions
             adequately monitored facilities’ compliance with enforcement
             instruments and considered further enforcement actions if
             companies did not comply with the instruments and (2) OECA
             oversaw regional enforcement activities. During our review, we
             also identified problems with OECA’s reporting of environmental
             benefits resulting from enforcement activities.

BACKGROUND
             Enforcement of the laws EPA administers plays an important role in
             EPA achieving its mission of improving and preserving the
             environment. A primary goal of enforcement is to bring violators
             into compliance with laws and regulations. One tool EPA uses to
             achieve this goal is administrative and judicial enforcement
             instruments. These instruments serve four purposes: (1) return
             violators to compliance, (2) ensure continued compliance, (3)
             remedy environmental harm, and (4) prevent new harm from
             occurring.

             Enforcement instruments may contain injunctions. An injunction is
             an order to do, or refrain from doing, a particular act and is limited
             to measures necessary to achieve and maintain compliance and
             reduce adverse effects the violation caused. Instruments that
             include injunctions can be effective in bringing violators into
             compliance and ensuring their future compliance, especially if
             facilities achieve compliance by implementing a compliance
             schedule or similar milestones. EPA uses “injunctive relief” to refer
             to these types of required activities. Injunctive relief yields tangible
             benefits such as human health, ecosystem, and worker protection.




                                1

                                                             Report No. 2001-P-00006
                               Audit of Compliance with Enforcement Instruments


SCOPE AND
METHODOLOGY	   We performed fieldwork in Regions 2, 5, and 6 in the Clean Air,
               Resource Conservation and Recovery, Drinking Water, and Clean
               Water Programs. We also interviewed OECA officials. For details,
               see exhibit 1.




                                2

                                                         Report No. 2001-P-00006
                                                     Audit of Compliance with Enforcement Instruments

                                   CHAPTER 2

                           Accomplishment Reports Not

                       Representative of Enforcement Efforts


                                 OECA’s annual accomplishment reports did not accurately
                                 represent the environmental benefits resulting from enforcement
                                 activities. In passing the Government Performance and Results Act
                                 (Results Act), Congress expected that agencies would develop
                                 processes to verify and validate performance data. Report
                                 inaccuracies occurred because: (1) violators may not have
                                 complied with the enforcement instruments thereby not achieving
                                 expected benefits and (2) data was not comprehensive. Also,
                                 OECA’s performance measures were not sufficient to determine the
                                 program’s actual accomplishments since it had not completed
                                 efforts to develop more comprehensive measures. As a result,
                                 OECA could not ensure it had accurately stated the actual
                                 environmental improvements resulting from the Agency’s
                                 enforcement activities.

BACKGROUND
                                 In passing the Results Act, Congress emphasized that the usefulness
                                 of agencies’ performance data for its decision making ultimately
                                 depends on the degree of confidence that Congress has in that data.
                                 For Congress to know whether the intended performance has truly
                                 occurred, agencies should produce performance data that is verified
                                 and valid. The Results Act requires that agencies describe in their
                                 annual performance plans how they intend to verify and validate
                                 performance data. The procedures should be credible and specific
                                 to ensure that performance information is sufficiently complete,
                                 accurate, and consistent to document performance and support
                                 decision making.1




        1
          An Assessment Guide to Facilitate Congressional Decisionmaking, U. S. General Accounting Office,
February 1998, GAO/GGD/AIMD-10.1.18.

                                                      3
                                                                                    Report No. 2001-P-00006
                                        Audit of Compliance with Enforcement Instruments


ANNUAL REPORTING

Report Based On        EPA’s Fiscal Year 1999 Annual Performance Report stated that
Anticipated Effects	   fiscal 1999 enforcement actions resulted in the reduction of more
                       than 6.8 billion pounds of pollutants and that about 21 percent of
                       actions resulted in improvements to the environment, such as
                       hazardous material removal. The report also stated that 47 percent
                       of actions resulted directly in changes to facility management
                       practices, which should lead to environmental improvements.
                       However, EPA cannot ensure that these accomplishments occurred
                       since it did not always verify that facilities took the required
                       actions. For example, as discussed in chapter 3, we found no
                       evidence that facilities complied with 30 of 122 randomly sampled
                       enforcement agreements. EPA could verify facilities’ actions
                       through activities such as inspections, document reviews, or phone
                       calls. Without verification, EPA can not be sure that the required
                       actions resulted in the desired environmental benefits. Likewise,
                       OECA indicated that there are instances where it is not possible to
                       estimate the environmental benefits that will result from
                       enforcement activities. As a result, OECA may have understated or
                       overstated the actual environmental improvements resulting from
                       EPA’s enforcement activities. In either case, the reports did not
                       accurately portray EPA’s enforcement achievements.

                       In response to our June 15, 2000, draft report, OECA stated that
                       “There is a general understanding within OECA (and among many
                       external consumers) that the environmental benefits claimed in
                       [various reports] publicize intended effects” required by the
                       enforcement instruments. The response further states that the
                       reports:

                              ... do not intend to suggest subsequent verification through
                              actual measurement-and logically, it is correct that if no one
                              monitors and/or enforces compliance with agreements, one
                              cannot say with comfort that the required effects have been
                              achieved.

                       While OECA stated that it had not intentionally implied that the
                       environmental impacts have happened, OECA also acknowledged
                       that it would have been more accurate if OECA had stated that


                                         4
                                                                     Report No. 2001-P-00006
                                                        Audit of Compliance with Enforcement Instruments

                                   actions reported were those required to result in pollutant
                                   reductions. Likewise, we spoke to Congressional staff members
                                   who suggested OECA include information on both intended results,
                                   that are clearly defined as “intended”, while also including any
                                   information measured on actual results achieved.

Reports Based On                   OECA annually prepares a Reporting for Enforcement and
System That Does                   Compliance Assurance Priorities (RECAP) report and an
Not Include All Data	              Annual Accomplishment Report. The data for both reports
                                   primarily comes from DOCKET, the official EPA database for
                                   tracking and reporting information on civil judicial and
                                   administrative enforcement cases issued. However, DOCKET data
                                   is not comprehensive2 since the system tracks violators’ compliance
                                   with consent decrees but does not track violators’ compliance with
                                   administrative instruments. Yet, administrative instruments
                                   comprised almost 90% of all instruments issued in fiscal 1998.3
                                   Just like consent decrees, these instruments may also contain
                                   injunctive relief requirements which, if implemented, would yield
                                   tangible benefits such as human health, ecosystem, and worker
                                   protection.

PERFORMANCE
MEASURES	                          OECA’s performance measures were not sufficient for determining
                                   the environmental benefits resulting from enforcement activities.
                                   OECA has traditionally relied on counting enforcement actions
                                   initiated (outputs) as its means of measuring success. In the last
                                   few years, OECA recognized the need for a more comprehensive
                                   performance measure, including one for compliance with
                                   enforcement instruments. However, as explained below, OECA did
                                   not finalize performance measures to address this need.

                                   OECA’s November 1996 Operating Principles stated that in the
                                   development and implementation of a new approach to measuring
                                   performance, EPA would:


        2
           We did not perform a detailed review of the system. The OIG is currently evaluating the quality of the
data contained in the DOCKET system as part of another review.
        3
           FY 1998 RECAP Measures of Success Management Report, April 13, 1999. We did not include
penalty orders since our review only covered instruments that included injunctive relief.

                                                        5
                                                                                        Report No. 2001-P-00006
                 Audit of Compliance with Enforcement Instruments

  •	   strive to measure accomplishments for all enforcement
       activities,
  •	   continue to count activities but also measure the related
       actual results and environmental impact,
  •	   collect, analyze, and report on violators’ actions and
       benefits to human health and the environment, and
  •	   continue to refine its measures of success to identify
       measures which are most meaningful for judging the
       effectiveness of EPA efforts and the performance of
       industry in achieving compliance.

In November 1997, OECA issued a draft Strategic Plan which
included an objective to: “Achieve continuous improvement in
compliance with environmental laws and regulations while
maintaining a strong base program.” A performance measure for
this objective was to:

       Ensure that 100% of regulated facilities under a
       formal enforcement action return to compliance in
       accordance with the schedule contained in the final
       order or decree.

Because EPA’s Results Act goals and EPA’s Strategic Plan
incorporated some of OECA’s concepts, the draft OECA Plan was
never finalized. The above performance measure was not
incorporated into EPA’s Strategic Plan. EPA’s Plan contained
more general goals which did not include a specific performance
measure like the measure proposed in the draft OECA Plan. In our
opinion, OECA need not adopt the 100% goal because it is
unrealistic to assume all violators will comply or that EPA has the
resources to verify that all enforcement actions are implemented.
However, a performance measure similar to the above would help
to provide a more accurate measure of EPA’s enforcement
accomplishments.

In December 1997, OECA also initiated the National Performance
Measures Strategy (Strategy) to develop and implement an
enhanced set of performance measures to better assess the results
of national enforcement efforts. The Strategy stated that while
output results, or number of enforcement actions taken, were
important for assessing performance and providing accountability to

                  6
                                             Report No. 2001-P-00006
                                    Audit of Compliance with Enforcement Instruments

                  the public, they did not reveal the actual compliance among the
                  regulated community. With the Strategy, OECA developed an
                  enhanced set of performance measures to assess the effect and
                  outcomes of enforcement activities. These performance measures
                  include impact and improvements on environmental and human
                  health problems. However, the data currently collected does not
                  address these performance measures since it does not reflect actual
                  human health or environmental improvements resulting from
                  activities, it only reflects anticipated results. In addition to
                  improving OECA’s ability to report its accomplishments to the
                  public, these measures were designed as a tool for strategically
                  managing its enforcement program and for complying with the
                  Results Act.

CONCLUSION
                  OECA cannot provide a completely accurate picture of EPA’s
                  enforcement achievements since OECA is not collecting
                  comprehensive data or using appropriate performance measures.
                  Also, OECA implies that all facilities comply with enforcement
                  instruments in its reporting on the environmental benefits resulting
                  from enforcement efforts. OECA needs to report accomplishments
                  based on actions that violators have actually completed along with
                  the benefits expected as a result of compliance with enforcement
                  instruments. EPA’s enforcement accomplishments, including
                  environmental benefits, are not accurately reflected if the actual
                  outcome of enforcement actions is not collected and measured.
                  Accordingly, OECA is not providing Congress with sufficient or as
                  accurate information as possible for decision making purposes.

RECOMMENDATIONS
                  We recommend that the Acting Assistant Administrator for
                  Enforcement and Compliance Assurance:

                   2-1	 Establish a performance measure for ensuring that facilities
                        under a formal enforcement action return to compliance in
                        accordance with the schedule contained in the final order or
                        decree.




                                    7

                                                               Report No. 2001-P-00006
                                            Audit of Compliance with Enforcement Instruments

                            2-2	 Identify a more accurate method for reporting, including
                                 verifying and validating, the actual accomplishments which
                                 result from EPA’s enforcement activities.

                           To help implement recommendation 2-2 and ensure that
                           performance data is more accurate and useful, chapter 3 discusses
                           steps EPA can take to improve regional efforts to monitor
                           violators’ compliance with enforcement instruments. These steps
                           will also help to ensure more accurate data for accomplishment
                           reports.

AGENCY ACTIONS
AND OIG EVALUATION	 In responding to recommendation 2-1, the Acting Assistant
                    Administrator stated that it is not desirable or realistic for EPA’s
                    enforcement program to adopt a performance measure along the
                    lines of the draft measure cited on page 6. The response indicated
                    that designing a system aimed at perfection (100%) in this area
                    would require seriously overbuilding the system. However, OECA
                    agreed that efforts to ensure the terms of compliance with judicial
                    instruments should be tracked as a performance measure.
                    Beginning in fiscal year 2002, OECA intends to have the regions
                    update EPA’s DOCKET system, or appropriate regional databases,
                    for judicial cases to reflect compliance schedules and EPA actions
                    to verify violators’ compliance. If regional databases are used,
                    OECA intends to stress the need for regions to ensure that
                    DOCKET is also regularly updated. Also, EPA is in the process of
                    developing a new tracking system which programs would use to
                    track all aspects of enforcement activity. When finished, OECA
                    will require regions to use the system to track enforcement
                    instrument compliance. At this time, OECA did not propose
                    tracking administrative actions in the same manner.

                           The OIG agrees that a performance measure need not adopt the
                           100% goal of the prior draft measure. However, we continue to
                           recommend that a performance measure for measuring violators’
                           return to compliance with enforcement instruments be established.
                           While OECA currently does not intend to track compliance with
                           administrative instruments in the same manner as judicial
                           instruments, we think OECA should revisit this issue in the future.
                           If EPA improves its monitoring efforts, EPA should be able to track


                                             8
                                                                       Report No. 2001-P-00006
                  Audit of Compliance with Enforcement Instruments

the number of facilities which have complied with both judicial and
administrative enforcement instruments as a performance measure.

In responding to our draft report and recommendation 2-2, the
Acting Assistant Administrator concurred with the
recommendations that OECA more accurately represent
accomplishments resulting from enforcement activities. OECA
intends to clarify language in its future reports to ensure readers
understand the context and limitation of the data presented.

We believe OECA’s proposed action is appropriate and, when
implemented, should help ensure more accurate reporting of
enforcement activity accomplishments.




                   9

                                               Report No. 2001-P-00006
                               Audit of Compliance with Enforcement Instruments

                   CHAPTER 3

                 Regions Need to 

             Improve Monitoring Efforts


             Regions did not always adequately monitor compliance with
             enforcement instruments, although they have the primary
             responsibility to perform this activity. Also, Regions did not always
             consider further enforcement actions for those cases where there
             was no evidence of compliance or facilities did not timely comply.
             Consequently, Regions did not know whether violations had
             continued and further contributed to environmental harm or
             increased health risks. Also, EPA’s ability to deter others from
             similar illegal behavior may have been adversely impacted.
             Ineffective monitoring may also have contributed to the regions not
             considering further enforcement actions for noncompliance with
             instruments. Ineffective monitoring was due primarily to the lack
             of: (1) guidance detailing how or when to monitor and (2)
             emphasis OECA placed on monitoring.

BACKGROUND
             The responsibility of the regions to monitor violators’ compliance is
             identified in OECA’s 1990 Manual on Monitoring and Enforcing
             Administrative and Judicial Orders (Manual). The Manual, in
             particular, states that regional program offices are responsible for
             routinely checking compliance with the non-penalty requirements.
             EPA must have effective monitoring procedures and regions must
             monitor instruments until the terms have been met. The Manual
             states that vigorous enforcement is essential to enable EPA to
             maintain its credibility with the courts, public, and regulated
             community and to achieve the desired environmental objective.
             The main goal of any enforcement action must be compliance with
             the law so public health and welfare is protected. According to the
             Manual, if enforcement instrument provisions are allowed to be
             violated for an extended period of time, serious environmental and
             health concerns may occur.




                              10

                                                           Report No. 2001-P-00006
                                    Audit of Compliance with Enforcement Instruments


REGIONAL ACTIONS
                   While we found regional staff usually performed some type of
                   monitoring of violators’ efforts to comply with instrument
                   requirements, only 48% showed evidence of monitoring around the
                   due dates. We believe that regional efforts to monitor closer to due
                   dates would have compelled some of the facilities to meet their
                   compliance schedules. Our review showed there was no evidence
                   that 30 of 122 (25%) violators had complied. In addition, another
                   36 (30%) violators either complied late or the timeliness of
                   compliance was unknown. (For a summary of findings for the
                   specific programs reviewed, see appendix 3.) To illustrate the
                   adverse conditions found:

                    •     A hazardous waste storage, blending, and recycling facility
                          improperly stored and released hazardous waste. As of the
                          date of our initial review, there was no evidence that the
                          facility had complied with the June 1997 enforcement
                          instrument. Our review five months later found that there
                          was still no evidence that this facility had complied.
                          Regional staff believe there were still additional areas of
                          hazardous waste contamination to inspect and cleanup. The
                          chemicals found at this site were toxic and corrosive and
                          included known and suspected carcinogens. The human
                          health effect of the chemicals included causing damage to
                          internal organs and effecting the central nervous system.
                          The chemicals could also be harmful to animals.

                    •     A public water supplier was issued an enforcement
                          instrument for exceeding its drinking water maximum
                          contamination levels for radium and barium by about 1.2 to
                          2.2 times EPA’s drinking water standards. Over 25 months
                          had passed since the facility was due to comply, yet there
                          was no evidence of compliance. During our followup over
                          five months later, the facilities’ compliance was still not
                          evident. EPA’s tracking system indicates that this facility
                          has had seventeen health-based violations reported between
                          January 1998 and March 2000. As a result, residents may
                          continue to be exposed to contaminants which can damage
                          the heart or cause cancer or high blood pressure.



                                    11
                                                                Report No. 2001-P-00006
                                                   Audit of Compliance with Enforcement Instruments

                                 •	     A stainless steel refinishing plant illegally discharged into a
                                        creek violation of its permit limits for toxicity levels. The
                                        facility was 21 months late in complying with the
                                        enforcement instrument. Continuing discharges above the
                                        toxicity levels can be harmful to aquatic life.

                                OECA officials advised us they did not rank monitoring for
                                compliance as essential for program success. Instead, they
                                indicated that compliance with enforcement instruments is of lower
                                level importance, despite OECA documents which reflect its
                                significance. For example, the Manual states that once an
                                instrument is issued, it must be monitored until the terms are met.
                                The Manual further states that verifying whether violators have
                                actually accomplished the activities is an essential element in the
                                overall success of the enforcement program. OECA’s fiscal
                                2000/2001 Memorandum of Agreement guidance stated that to
                                maintain a viable program necessary for a credible enforcement
                                presence, programs should track compliance and take all necessary
                                actions to ensure continued compliance.

                                As previously cited on page 5, EPA tracks violators’ compliance
                                with consent decrees which a court approves, but does not track
                                violators’ compliance with administrative instruments that EPA
                                signs. EPA tracks violators’ compliance with consent decrees
                                because of its legal responsibility to the Courts for ensuring that the
                                terms of each decree are properly met. Focusing solely on consent
                                decrees, however, is not enough because the majority of EPA’s
                                enforcement actions are administrative. In fiscal 1998, 1,721 of the
                                1,974 actions were administrative, or almost 90%.4

                                Because the programs did not always monitor to ensure full
                                compliance, violations continued for up to 36 months past the
                                instrument deadlines for those facilities that complied late and
                                potentially longer for those cases where information was lacking.
                                For example, an apartment complex was 24 months late in taking
                                and submitting acceptable samples results for its drinking water. As



        4
           FY 1998 RECAP Measures of Success Management Report, April 13, 1999. We did not include
penalty orders since our review only covered instruments that included injunctive relief.

                                                   12
                                                                                Report No. 2001-P-00006
                                                      Audit of Compliance with Enforcement Instruments

                                  a consequence of the untimely and inadequate sampling, residents
                                  may have been exposed to water contaminants.

                                  In part, regions did not adequately monitor violators’ compliance
                                  with instrument requirements because the Manual only provided
                                  general guidance to EPA staff on their roles and responsibilities for
                                  monitoring. The Manual did not establish basic procedures for
                                  regions to use in monitoring violators’ efforts to comply with
                                  enforcement instrument requirements. Various media specific
                                  policies also show the need for monitoring but, like the Manual, did
                                  not provide any standard procedures.5 Media policies provided
                                  timelines for when to take further enforcement actions for
                                  noncompliance. However, these timelines are not triggered if
                                  regions do not monitor and identify violations of instruments. As a
                                  result, further actions for noncompliance may not always have been
                                  taken when appropriate.

                                  Our review also found that Regions 2, 5, and 6 only took further
                                  enforcement actions in 10 of 66 (15%) cases with no evidence of
                                  compliance, where violators did not timely comply, or where the
                                  timeliness of compliance with requirements was unknown.6 In 86
                                  of the 122 (70%) enforcement instruments we reviewed, Regions
                                  included warning language to describe penalties that violators may
                                  have to pay if they did not comply with instrument requirements.
                                  However, EPA only assessed penalties in 4 of the 66 cases. EPA
                                  may also refer violations of instruments to DOJ and used this
                                  process to escalate six cases. In some cases, EPA’s threat of
                                  referral, or initial steps to refer, was incentive enough to compel
                                  violators to comply.

                                  We recognize that program offices have discretion on when to take
                                  further enforcement actions and we do not believe these actions are
                                  necessary in every case. However, in accordance with the Manual,
                                  if programs determined further actions should not be taken, the case


        5
           In June 2000, Region 5’s Drinking Water Program issued guidance which took steps to improve
following up on instruments and indicating when additional actions should be taken.

        6
           Because the timeliness of compliance was unknown for four cases, EPA would not be able to judge
whether or not further enforcement actions were needed.

                                                      13
                                                                                     Report No. 2001-P-00006
                                               Audit of Compliance with Enforcement Instruments

                         files should reflect those decisions. Yet, case files typically did not
                         show whether regional staff considered taking further actions or
                         supporting why actions were not pursued in the other cases.

Significance of Cases	   In 26 of the 30 instruments (87%) where files contained no
                         evidence of compliance, we determined that EPA had issued the
                         instruments for significant violations (Table 3.1). Also, of the 36
                         instruments in which compliance was late or timeliness was
                         unknown, 23, or 64%, were issued for significant violations (Table
                         3.2). As the tables show, EPA did not take further actions in most
                         cases.

                                  Table 3.1: No Evidence of Compliance

                                                               Number of Cases
                                                       Significant     Non-Significant
                                   Further Action          4                 2
                                 No Further Action         22                2
                                       Total                         30

                                        Table 3.2: Complied Late or
                                     Timeliness of Compliance Unknown

                                                               Number of Cases
                                                       Significant     Non-Significant
                                   Further Action          2                 2
                                 No Further Action         21                11
                                       Total                         36

                         Lack of monitoring in these cases may be the result of unclear EPA
                         guidance on monitoring. For instance, while OECA told us that
                         EPA prioritizes the monitoring and enforcement of the most
                         important instruments, regional program managers and staff
                         indicated that they try to monitor all cases equally and no cases are
                         flagged for priority monitoring regardless of significance. We agree
                         with OECA that EPA enforcement programs should prioritize their
                         efforts. However, we believe that OECA officials should
                         emphasize monitoring, as described in various documents, and
                         supplement existing documents with the issuance of basic
                         procedures that the regions should use.

                                               14
                                                                                 Report No. 2001-P-00006
                                                  Audit of Compliance with Enforcement Instruments

                               We recognize that some violations are more significant than others
                               since there are risks to the environmental or human health.
                               However, paperwork violations, such as a facility’s failure to
                               monitor for contaminants and report results to EPA, can be
                               significant. As regional staff indicated, this type of violation can be
                               significant because the potential health or environmental harm is not
                               known without this information. A recent OECA report recognized
                               that reporting is an integral component of environmental
                               regulations and enables EPA to monitor facilities’ compliance with
                               those regulations.7 The report stated that reporting requirements
                               allow EPA to evaluate the level of health and environmental
                               protection.

Impact on Goals	               The main goal of an enforcement action is compliance with the law
                               so public health and welfare is protected. EPA needs to use both
                               monitoring and further enforcement actions to ensure a successful
                               program that meets the Agency’s goal of providing a credible
                               deterrent to pollution while ensuring greater compliance with the
                               law. If enforcement actions are not effective, this adversely impacts
                               the:

                                  •    Environment. Without timely compliance, facilities’ original
                                       violations may continue uncorrected, possibly adding to
                                       environmental or human health problems.

                                  •    Deterrent effect of EPA’s enforcement actions. EPA must
                                       maximize its effectiveness through deterrence since it will
                                       never be able to bring about compliance at every regulated
                                       facility. If EPA more effectively monitors and takes further
                                       actions when facilities do not comply with instruments, they
                                       are more likely to voluntarily achieve and maintain
                                       compliance.

                                  •    Level playing field. Not following through on enforcement
                                       actions creates an unfair advantage for violators who gain
                                       economic benefits by avoiding the costs of compliance.
                                       OECA has stated that environmental laws must be fairly and
                                       consistently enforced throughout the nation.


      7
          EPA/CMA Root Cause Analysis Pilot Project, May 1999, EPA-305-R-99-001.

                                                  15
                                                                               Report No. 2001-P-00006
                                                     Audit of Compliance with Enforcement Instruments

                                    •	   The example EPA sets for states. OECA has previously
                                         recognized that EPA must be held to at least the same
                                         accountability for performance that it expects of state
                                         authorized programs.

OECA ACTIONS
                                 OECA’s role is to provide overall leadership for the enforcement
                                 program, including effective implementation of the program.8
                                 OECA officials explained that, when making resource or priority
                                 decisions, it informally assesses unaddressed risks for the program.
                                 This informal assessment enables OECA to make decisions and
                                 determine those activities which are higher priority. OECA’s
                                 response to our June 2000 draft report stated that we did not give
                                 consideration to how enforcement priorities are determined and the
                                 importance of following up on enforcement actions compared to
                                 other program components. Yet, in prior discussions, OECA
                                 officials advised us that they did not believe that enough
                                 information existed for us to perform a study of their priority
                                 setting process. However, we believe that OECA needs to
                                 emphasize monitoring compliance with both judicial and
                                 administrative enforcement instruments.

                                 While OECA officials indicated that monitoring instruments is not a
                                 top priority, they will take steps to improve the implementation and
                                 oversight of both judicial and administrative instruments. In a
                                 memorandum dated February 8, 2001, OECA reminded regions of
                                 the need to follow the Manual and comply with the terms of the
                                 1990 Judicial Consent Decree Tracking and Followup Directive
                                 (Directive). OECA also intends to discuss tracking during regularly
                                 scheduled regional visits.

Guidance Needed	                 Without more specific guidance and a more consistent process on
                                 how to monitor for compliance, regional employees generally
                                 developed their own monitoring methods. Accordingly, OECA
                                 needs to issue national guidance to improve the uniformity and
                                 effectiveness of its enforcement program. Guidance should
                                 address, at a minimum, the following five areas:

        8
           Redelegation of Authority and Guidance on Headquarters Involvement in Regulatory Enforcement
Cases, July 11, 1994.

                                                    16
                                                                                   Report No. 2001-P-00006
                 Audit of Compliance with Enforcement Instruments

(1)	   Monitoring for compliance with enforcement instrument
       requirements. We recognize that it may be appropriate for
       monitoring efforts to vary among programs or cases due to
       the types of violations involved, but guidance should be
       used to establish some baseline monitoring steps for regions.

(2)	   Changing due dates for instrument requirements. While we
       understand that EPA has discretion for extending due dates,
       EPA needs to ensure that facilities do not use extensions to
       their advantage to avoid fines which may result from
       delayed compliance.

(3)	   Documenting violators’ receipt of enforcement instruments
       to prevent them from claiming non-receipt of the
       instrument as a means to delay compliance. To prevent
       false claims in this regard, regions should make better use of
       certified mail cards. Regions already send the instruments
       by certified mail to establish a deadline. Regions should
       also use certified mail cards to dispute violators’ claims of
       non-receipt and, thereby, prevent them from gaining
       additional time.

(4)	   Issuing compliance letters to facilities which have
       adequately completed all actions required in enforcement
       instruments. These letters are used in Region 5 and we
       believe this action would be a good practice to institute
       nationally. This action would help to more clearly indicate
       whether a facility had complied with an instrument and also
       ensure that cases were closed in the enforcement tracking
       system.

(5)	   Improving file documentation. Many of the files reviewed
       lacked documentation of violators’ efforts to comply with
       instruments and EPA’s efforts to verify compliance. If
       facilities fail to comply with instruments and EPA
       determined that further actions should not be taken, the files
       should also reflect those decisions. Documentation is
       especially important for maintaining a case history and
       enables EPA to effectively monitor cases, particularly
       during periods of staff turnover.


                 17
                                             Report No. 2001-P-00006
                               Audit of Compliance with Enforcement Instruments

                    One good practice was identified in Region 6. Some case
                    files included Technical Review Action Sheets to reflect that
                    the Region reviewed violators’ submitted documents.
                    These sheets also indicated whether the Region determined
                    that the violators’ actions were acceptable and fulfilled
                    instrument requirements. The review sheet also allowed for
                    any comments regarding the document or the case. The
                    technical review sheet should be used on a national basis to
                    ensure that case files more accurately (1) portray regional
                    monitoring actions and (2) reflect the history of the case.

             We believe that the above activities would improve EPA’s
             monitoring and documenting of violators’ compliance with
             enforcement instruments. Preparing a technical review action sheet
             or issuing a compliance letter could easily be accomplished as
             monitoring is performed. Also, improved file documentation
             should reduce the learning curve in cases of staff turnover. These
             activities would also provide a basis for evaluating the quality and
             timeliness of regional monitoring efforts.

CONCLUSION
             Although OECA documents reflect the importance of monitoring,
             OECA actions have not reflected its commitment to this activity. In
             particular, OECA has not placed sufficient emphasis on monitoring
             activities or provided sufficient baseline guidance to ensure regions
             monitor violators’ compliance with all enforcement instruments,
             especially administrative. If instrument requirements are allowed to
             be violated for an extended period of time, serious environmental
             and health concerns may occur. Inconsistent and inadequate
             enforcement can lead to inequitable treatment of facilities, where
             some facilities pay to come into compliance up-front or through
             enforcement actions, while others are allowed to profit from
             avoiding requirements. Not following through on enforcement
             actions may also result in continuing risks to public health and the
             environment.




                              18

                                                          Report No. 2001-P-00006
                                           Audit of Compliance with Enforcement Instruments


RECOMMENDATIONS
                          We recommend that the Acting Assistant Administrator for
                          Enforcement and Compliance Assurance:

                           3-1	 Issue basic guidance for (1) monitoring violators’ efforts to
                                comply with enforcement instruments and (2) considering
                                further enforcement actions when violators fail to comply
                                with instrument requirements. We recommend that this
                                guidance includes those five elements previously discussed.

                          We recommend that all Regional Administrators:

                           3-2	 Ensure that the regional program offices take steps, until
                                OECA issues guidance, to adequately monitor violators’
                                actions and consider further enforcement actions, when
                                appropriate.

                           3-3	 Determine the status of those cases where files showed no
                                evidence of violator compliance.

AGENCY ACTIONS
AND OIG EVALUATION	 In response to the draft recommendations for 3-1 and 3-2, OECA
                    concurred that it and the regions can and should improve tracking
                    and enforcing compliance with requirements in enforcement
                    instruments. OECA has already taken steps to remind the regions
                    of the need to be familiar with, and follow, current guidance.
                    OECA also intends to raise compliance with enforcement
                    instruments at an upcoming National Enforcement Meeting and
                    during its regularly scheduled regional visits. OECA is currently
                    working with the regions to update regional plans which address
                    the monitoring and enforcing issue for both judicial and
                    administrative actions. While OECA agrees on the importance of
                    having strategies in place, OECA does not intend to issue new
                    national guidance at this time. However, at the end of the fiscal
                    year, OECA intends to revisit the need to issue new national
                    guidance depending on how well the regional plans are working to
                    improve enforcement instrument monitoring and enforcement.

                          We concluded that OECA’s response to the recommendations was
                          adequate for resolution.

                                           19
                                                                       Report No. 2001-P-00006
                 Audit of Compliance with Enforcement Instruments

In response to recommendation 3-3, the Acting Assistant
Administrator attached Region 2’s response to the draft report.
Region 2 indicated that they have begun the process of addressing
this recommendation and completion is expected by September 30,
2001. We did not receive any written response to this
recommendation from Regions 5 and 6. Regions 5 and 6 need to
provide specific corrective actions and milestone dates for
addressing the recommendation.




                 20

                                            Report No. 2001-P-00006
                                  Audit of Compliance with Enforcement Instruments

                                                                            Exhibit 1
                                                                           Page 1 of 5
        Scope, Methodology, and Prior Audit Coverage

SCOPE AND
METHODOLOGY	     This is one of several audits of EPA’s enforcement program. The
                 OIG’s Northern Audit Division led the fieldwork with assistance
                 from the Eastern and Central Audit Divisions. The fieldwork was
                 performed in Regions 2, 5, 6 and OECA from March 1, 1999 to
                 April 25, 2000. We issued a draft report on June 15, 2000. To
                 address issues OECA raised in response to the draft, we performed
                 supplementary fieldwork from September 6, 2000 to November 30,
                 2000, and revised our draft report. Our work was conducted in
                 accordance with generally accepted government auditing standards
                 and included such tests as we determined necessary to complete the
                 objectives.

                 We chose Regions 2, 5 and 6 since they accounted for about 55%
                 of the universe of enforcement instruments issued in fiscal 1997 and
                 1998 which included injunctive relief such as installing a new air
                 pollution control device.

                 Based on our survey conducted in Region 5, we selected the
                 following programs for review:

                  •     Clean Air and Clean Water Programs because they
                        accounted for a large portion of injunctive relief efforts.

                  •     Safe Drinking Water and Underground Injection Control
                        (UIC) Programs for insight into how smaller programs
                        monitor enforcement instruments and to obtain a more
                        complete assessment of the Water Program. We included
                        both programs since data obtained from DOCKET made it
                        difficult to differentiate between the cases.

                  •     Resource Conservation and Recovery Act (RCRA) Program
                        because the OIG currently has a related Issue Area Plan.




                                  21
                                                                Report No. 2001-P-00006
                                                          Audit of Compliance with Enforcement Instruments

                                                                                                       Exhibit 1
                                                                                                      Page 2 of 5

Sample Selection	                  To evaluate enforcement activities, we reviewed randomly sampled
                                   case files. We used DOCKET data to determine the universe size
                                   for each program in each region.9 We then generated an estimated
                                   sample size and identified a random sample for each regional
                                   program.

                                   Our sampling process resulted in the following sample sizes:

                                                                         Number of Cases

                                                               Clean   Drinking Water               Sample
                                                    Air        Water      and UIC          RCRA    Size Total

                                    Region 2        12          20           6              4         42

                                    Region 5        8           11           20             4         43

                                    Region 6        4           30           5              5         44

                                    TOTALS          24          61           31             13        129


                                   During our fieldwork, we eliminated five Clean Air cases due to
                                   difficulties in identifying cases which met our criteria. We also
                                   eliminated one Region 5 Safe Drinking Water file lost in transit
                                   from the archives and one Underground Injection Control case
                                   since it was the only sample case for this program which met our
                                   criteria. Our final sample size was 122 cases, including 19 Clean
                                   Air, 61 Clean Water, 29 Drinking Water, and 13 RCRA cases.

                                   We also had difficulty identifying Region 6 RCRA cases which met
                                   our criteria. Many of the Region 2 Air and Region 6 RCRA cases
                                   did not require facilities to perform injunctive relief. These facilities
                                   (1) only had to pay a penalty, (2) had complied prior to the
                                   instrument being issued, or (3) were only required to ensure future
                                   compliance with regulations. We used random sampling so



        9
           The list of RCRA cases originally included Underground Storage Tank cases. Since this program was
not included in our review because the cases mainly include penalties, we did not count them towards the RCRA
universe. We also modified the universe of Clean Water cases to eliminate cases dealing with the Oil Pollution Act
since they were not included in our audit.

                                                          22
                                                                                           Report No. 2001-P-00006
                                             Audit of Compliance with Enforcement Instruments

                                                                                     Exhibit 1
                                                                                    Page 3 of 5

                           that we could project results to the universe. However, because of
                           problems meeting the criteria listed above for the Region 2 Air and
                           Region 6 RCRA cases, we did not project the results as intended.

Determinations Regarding   We considered a case as monitored if we saw any evidence of EPA
Monitoring, Timely         actions, such as inspections, review of submitted documents, phone
Compliance, and Further    calls, or meetings with the violator. The only cases where we
Actions Needed	            stated that there was no evidence of monitoring were those which
                           did not show even one EPA action to follow-up on the facilities’
                           efforts to comply with the instruments. We also set a basis of
                           identifying whether EPA had monitored an instrument within a
                           month before or a month after violators were due to take actions.
                           In the absence of monitoring guidance, we felt this was a reasonable
                           time frame for EPA to ensure violators were meeting instrument
                           requirements.

                           In determining whether violators timely complied, we used the
                           enforcement instrument’s schedule, or milestone due dates,
                           established for the required injunctive relief actions. We compared
                           the due dates to the date the facility took the required action. We
                           did not allow facilities a grace period before considering their
                           compliance to be untimely since a Regional official stated that even
                           one day of noncompliance could be harmful in some cases.

                           In cases where EPA approved an extension to the original due date,
                           we used the revised date. We also did not consider a facility late in
                           meeting a requirement if it was dependent upon a previous
                           requirement which had not been completed. If EPA asked a facility
                           to revise a document, we used the due date for the submission of
                           the revised document.

                           In reviewing further enforcement actions, such as issuing penalties
                           or referring cases to DOJ, we recognized that EPA has discretion.
                           However, in the absence of evidence indicating that EPA decided
                           against taking further actions, we stated that such action might have
                           been called for against violators’ of instrument requirements. We
                           did not make a determination on whether EPA should have


                                            23
                                                                         Report No. 2001-P-00006
                                                    Audit of Compliance with Enforcement Instruments

                                                                                              Exhibit 1
                                                                                             Page 4 of 5

                                 escalated enforcement actions to issue penalties or refer cases to the
                                 DOJ for those violators where there was no evidence of compliance
                                 or where violators did not timely meet instrument requirements.
                                 Also, while Region 2 subsequently took further enforcement actions
                                 in five additional cases, the report focuses on those enforcement
                                 activities performed prior to our initial review.

Determinations Regarding In response to our June 2000 draft report, OECA’s Assistant
Significance	            Administrator stated that the draft did not discuss the severity of
                         violations, thereby making it impossible to determine if further
                         actions were justified. To address this concern, we identified the
                         significance of the underlying violations which originally resulted in
                         EPA’s issuance of the enforcement instrument in each of the 66
                         cases in which we found compliance problems. (For more
                         information on the cases see appendix 1). To determine whether
                         violations were significant, we (1) talked to program management
                         and staff in all three regions, (2) reviewed national and regional
                         program policies, and (3) used data obtained from EPA databases.

Cost Data                        During our review, we tried to compare the costs associated with
Unavailable	                     issuing an enforcement instrument to the costs associated with
                                 monitoring violators’ compliance with an instrument. However, we
                                 were not able to review OECA’s activities from a cost-benefit
                                 standpoint since OECA currently does not track costs for
                                 enforcement activities. Program management and staff were not
                                 able to provide cost estimates and indicated that costs would vary
                                 according to each enforcement instrument. OECA acknowledged in
                                 response to a prior OIG report that while it currently did not track
                                 enforcement costs, it intends to pilot a tracking mechanism.10
                                 OECA intends to associate costs to enforcement actions by 2002.

Internal Controls                To assess internal controls, we reviewed the 1996 through 1998
and Criteria	                    Federal Managers’ Financial Integrity Act reports for OECA and
                                 Regions 2, 5, and 6.



       10
            EPA’s Multimedia Enforcement Program, 2000-P-000018, June 30, 2000.

                                                   24
                                                                                  Report No. 2001-P-00006
                               Audit of Compliance with Enforcement Instruments

                                                                       Exhibit 1
                                                                      Page 5 of 5

              To accomplish our objectives, we reviewed applicable OECA and
              program policies and procedures and interviewed OECA and
              regional staff. The OIG liaison also spoke with Congressional staff
              members regarding OECA accomplishment reporting. We also
              assessed the Agency’s compliance with laws and regulations that
              were specific to our audit and the programs reviewed.

              Finally, we evaluated EPA’s measures for the area of review as
              required under the Results Act. As criteria, we used the Clean Air
              Act, Clean Water Act, Safe Drinking Water Act, and RCRA, the
              Manual on Monitoring and Enforcing Administrative and Judicial
              Orders, the Guidance on Certification of Compliance with
              Enforcement Agreements, the Operating Principles for an
              Integrated Enforcement and Compliance Assurance Program, the
              Final FY 98/99 OECA Memorandum of Agreement Consolidated
              Technical Guidance, and the FY 1999 OECA Memorandum of
              Agreement Guidance Update.

PRIOR AUDIT
COVERAGE	     In March 1989, the OIG issued a Consolidated Report on Review
              of EPA Controls Over Compliance Monitoring of RCRA
              Enforcement Program Consent Agreement Provisions (Report No.
              E1g2*7-09-0110-9100215). The review, performed in Regions 2,
              8, and 9, found that monitoring procedures were not adequate to
              ensure compliance with program requirements. Eighty percent of
              the facilities sampled were either not complying timely and
              adequately or there was no documented evidence of compliance.




                               25

                                                           Report No. 2001-P-00006
                                                                                                                                   Audit of Compliance with Enforcement Instruments

                                                                                                                                                                                            Appendix 1

                                                                                                                                                                                            Page 1 of 2


                                                            Cases with No Evidence of Compliance
     Region   Program   Instrument             Facility                             Types of                           Evidence of Significant Further Action Approximate         Status of Compliance with
                           Type                 Type                                Violations                         Monitoring Violations    (Penalty or Time Past Due                Instrument
                                                                                                                                                 Referral)    (Through date         (As of second review)
                                                                                                                                                              of first review)

1      2       CAA      COM          College                  Failed to maintain records; submit reports; meet             No          Yes            No       19 months         No evidence of compliance
                                                              monitoring and testing requirements for sulfur dioxide
2      5       CAA      CD           Wood Finishing Plant     Required to design, construct, operate, and maintain         Yes          No           Yes       32 months         No evidence of compliance
                                                              pollution control equipment
3      5       CAA      COM          Cement Barge             Failed to submit annual report                               No          Yes            No       36 months         No evidence of compliance
                                     Unloading and Storage
                                     Facility
4      5      RCRA      CACO         Produces Circuit         Failed to comply with hazardous waste handling               Yes         Yes            No       12 months         No evidence of compliance
                                     Boards                   requirements
5      6      RCRA      AO           Hazardous Waste          Improper storage and release of Hazardous Waste              Yes         Yes            No       Unable to         No evidence of compliance
                                     Storage, Blending, and                                                                                                    determine
                                     Recycling Facility
6      2      SDWA      AO           Public Water Supplier  Failed to install filtration equipment                         Yes         Yes           Yes       38 months         No evidence of compliance
7      2      SDWA      AO           Public Water Supplier  Failed to install filtration equipment                         Yes         Yes           Yes       17 months         No evidence of compliance
8      2      SDWA      AO           Public Water Supplier  Failed to install filtration equipment                         No          Yes           No        40 months         No evidence of compliance
9      5      SDWA      AO           Restaurant             Failed to sample for coliform, lead, and copper                Yes         Yes           No        16 months         No evidence of compliance
10     5      SDWA      AO           Daycare Center         Failed to sample for lead and copper                           No          Yes           No        17 months         No evidence of compliance
11     5      SDWA      AO           Public Water Supplier  Exceeded maximum contaminant levels for barium                 Yes         Yes           No        25 months         No evidence of compliance
                                                            and radium
12     5      SDWA      AO           Campground             Failed to sample for nitrates                                  No          Yes            No       36 months         Complied late
13     5      SDWA      AO           Apartment Complex      Failed to sample for lead and copper                           Yes         Yes            No       29 months         Complied late
14     5      SDWA      AO           Mold, Pattern, and Die Failed to sample for nitrates, coliform, lead, and             Yes         Yes            No       17 months         Complied late
                                     Welder                 copper
15     6      SDWA      AO           Public Water Supplier Failed to collect required number of coliform samples           Yes         Yes            No       24 months         No evidence of compliance
     Region   Program   Instrument             Facility                             Types of                           Evidence of Significant Further Action Approximate         Status of Compliance with
                           Type                 Type                                Violations                         Monitoring Violations    (Penalty or Time Past Due                Instrument
                                                                                                                                                 Referral)    (Through date         (As of second review)
                                                                                                                                                              of first review)




                                                                                                    26

                                                                                                                                                                           Report No. 2001-P-00006
                                                                                                                 Audit of Compliance with Enforcement Instruments

16   2    CWA   AO        Wastewater Treatment   Violated permit operation and maintenance              Yes         Yes        No      19 months     No evidence of compliance
                          Plant                  requirements
17   2    CWA   AO        Wastewater Treatment   Exceeded discharge limits for nitrogen, turbidity,     No          Yes        No      34 months     No evidence of compliance
                          Plant                  chlorine, and coliform
18   5    CWA   ACO       Excavator              Illegal discharge of dredged or fill material          Yes         Yes        No      23 months     No evidence of compliance
19   5    CWA   COM       Copper Smelter         Illegal discharges of lead, zinc, and cadmium          Yes         Yes        Yes     32 months     No evidence of compliance
20   5    CWA   AO        Publically Owned       Illegal discharge exceeded permit limits               Yes         No         Yes     27 months     No evidence of compliance
                          Treatment Works
21   5    CWA   COM       Battery Manufacturer   Exceeded permit discharge lead and copper limits       Yes         Yes        Yes     28 months     No evidence of compliance
22   5    CWA   CD        Stainless Steel        Illegal discharge violated permit limits               Yes         Yes        No      21 months     Complied late
                          Refinishing Plant
23   6    CWA   AO        Produce oil and gas    Discharge in violation of permit                       Yes         Yes        No      18 months     No evidence of compliance
24   6    CWA   AO        Produce oil and gas    Violated permit discharge requirements                 Yes         Yes        No      18 months     No evidence of compliance
25   6    CWA   AO        Produce oil and gas    Violated permit discharge requirements                 Yes         Yes        No      18 months     No evidence of compliance
26   6    CWA   AO        Sand and gravel        Operated without permit; no pollution prevention       No          No         No      22 months     No evidence of compliance
                          operation              plan; no erosion controls
27   6    CWA   CD        Metal Recycler         Illegally discharged without a permit                  No          Yes        No      35 months     No evidence of compliance
28   6    CWA   AO        Publically Owned       Failed to meet permit pre-treatment requirements       Yes         Yes        No      26 months     No evidence of compliance
                          Treatment Works
29   6    CWA   AO        Dairy                  No pollution prevention plan                           No          Yes        No      33 months     No evidence of compliance
30   6    CWA   AO        Quarry                 Illegally discharged without permit; no pollution      Yes         No         No      22 months     No evidence of compliance
                                                 prevention plan
                                                                                                                                                     No evidence of
                                                                                                      Yes = 21    Yes = 26   Yes = 6                  compliance = 26
                                                             TOTALS                                   No = 9      No = 4     No = 24                 Complied Late = 4


Key:
Programs:                                                      Instrument Types:
 CAA - Clean Air Act                                             COM - Compliance Order
 RCRA - Resource Conservation and Recovery Act                   CD     - Consent Decree
 SDWA - Safe Drinking Water Act                                           CACO - Consent Agreement Consent Order
 CWA -Clean Water Act                                            AO      - Administrative Order
                                                                 ACO - Administrative Compliance Order




                                                                                        27
                                                                                                                                                   Report No. 2001-P-00006
                                                                                                                              Audit of Compliance with Enforcement Instruments

                                                                                                                                                                                       Appendix 2

                                                                                                                                                                                       Page 1 of 2


                         Cases with Late Compliance and Timeliness of Compliance Unknown
     Region   Program   Instrument             Facility                                          Types of                                  Evidence of Significant     Further      Approximate Time
                           Type                 Type                                             Violations                                Monitoring Violations       Action           Past Due
                                                                                                                                                                     (Penalty or   (Through date of first
                                                                                                                                                                      Referral)          review)

1      2      CAA       COM          Wastewater Treatment Plant   Failed to submit reports and test results for mercury                       No           No           No         1 month
2      5      CAA       AO           Produces Global Chemicals    Failed to Submit Section 114 Information Request                            Yes          No           Yes        5 days
3      5      CAA       AO           Steel Mill                   Exceeded emissions; failed to monitor and test for particulate matter       Yes          Yes          No         4 months
4      5      CAA       CD           Auto Painting Plant          Exceeded Volatile Organic Materials                                         Yes          No           No         1 month
5      6      CAA       AO           Hard Chrome Electroplating   Failed to report and test for chromium emissions; recordkeeping             Yes          Yes          No         6 months
6      6      CAA       ACO          Auto Repair                  Failed to use required equipment                                            Yes          No           No         4 months
7      5      RCRA      AO           Chemical Manufacturer        Stored hazardous material without classification                            Yes          No           No         7 days
8      6      RCRA      AOC          Ranch                        Illegal disposal of hazardous materials; leaking drums                      Yes          Yes          No         1 month
9      6      RCRA      AO           Air Force Base               Release of hazardous materials                                              Yes          Yes          No         10 days
10     6      RCRA      CACO         Brass Foundry                Failed to secure permit to treat hazardous materials                        No           Yes          No         1 month
11     2      SDWA      AO           Public Water Supplier        Failed to monitor for waterborne diseases and report                        Yes          Yes          Yes        20 months
12     2      SDWA      AO           Public Water Supplier        Failed to install filtration equipment                                      No           Yes          No         1 month
13     5      SDWA      AO           Restaurant                   Failed to sample for nitrates                                               Yes          Yes          No         7 months
14     5      SDWA      AO           Airport                      Failed to sample for nitrates                                               Yes          Yes          No         15 months
15     5      SDWA      AO           Car Dealer                   Failed to sample for lead and copper                                        Yes          Yes          No         12 months
16     5      SDWA      AO           Mobile Home Park             Failed to sample for organic materials                                      Yes          Yes          No         3 months
17     5      SDWA      AO           Elementary School            Failed to sample for nitrates, coliform, lead, and copper                   Yes          Yes          No         10 months
18     5      SDWA      AO           Elementary School            Failed to sample for nitrates, coliform, lead, and copper                   Yes          Yes          No         12 months
19     5      SDWA      AO           Public School                Failed to sample for volatile and synthethic organic contaminants           Yes          Yes          No         22 months
20     6      SDWA      AO           Public Water Supplier        Inadequate filtration and disinfections treatment                           No           Yes          No         Unable to Determine
21     2      CWA       AO           Vitamin Manufacturer         Violated pretreatment standards; failed to submit reports                   Yes          No           Yes        2 months
22     2      CWA       AO           Wastewater Treatment Plant   Discharged raw sewage outside permitted area                                Yes          Yes          No         1 month
23     2      CWA       O            Wastewater Treatment Plant   Unauthorized bypass of raw sewage; discharged outside outfalls; failed      Yes          Yes          No         6 months
                                                                  to maintain facility
24     2      CWA       AO           Wastewater Treatment Plant   Unauthorized bypass of raw sewage; failed to maintain facility              Yes          No           No         1 month




                                                                                                 28

                                                                                                                                                                      Report No. 2001-P-00006
                                                                                                                              Audit of Compliance with Enforcement Instruments


     Region   Program   Instrument              Facility                                          Types of                                  Evidence of Significant     Further      Approximate Time
                           Type                  Type                                             Violations                                Monitoring Violations       Action           Past Due
                                                                                                                                                                      (Penalty or   (Through date of first
                                                                                                                                                                       Referral)          review)

25     2      CWA       O            Wastewater Treatment Plant Unauthorized bypass of raw sewage; discharged outside outfalls; failed         Yes          Yes          No         6 months
                                                                to maintain facility
26     2      CWA       O            Sand and Gravel Company    Failed to timely provide information and comply with permit                    No           No           No         30 months
27     2      CWA       CO           Land Owner/ Developer      Cleared and filled wetlands without permit                                     Yes          No           No         9 months
28     5      CWA       AO           Steel Mill                 Violated permit limits                                                         Yes          Yes          Yes        Unable to Determine
29     6      CWA       AO           Copper Wire Drawing        Discharges pollutants without permit; failed to submit pollution               Yes          No           No         10 days
                                     Facility                   prevention plan
30     6      CWA       AO           Publically Owned Treatment Exceeded discharge limits; inadequate operations                               Yes          Yes          No         9 days
                                     Works
31     6      CWA       AO           Construction               Discharged eroded soil without permit                                          Yes          No           No         1 month
32     6      CWA       AO           Produces oil and gas       Failed to timely eliminate discharges                                          Yes          Yes          No         Unable to Determine
33     5      CWA       AO           Subdivision Developer      Illegal discharges                                                             Yes          No           No         Timeliness Unknown
34     6      CWA       AO           Scrap Metal Facility       Discharge without permit; no pollution prevention plan                         No           No           No         Timeliness Unknown
35     6      CAA       ACO          Auto Repair                Failed to use refrigerated recovery equipment                                  No           Yes          No         Timeliness Unknown
36     6      SDWA      AO           Public Water Supplier      Exceeded coliform limits; failed to collect all required coliform samples      No           Yes          No         Timeliness Unknown

                                                                                                                                             Yes = 28    Yes = 23     Yes = 4
                                                                                                                                             No = 8      No = 13      No = 32
                                                                                     TOTALS

Key:
Programs:                                                                 Instrument Types:
 CAA - Clean Air Act                                                        COM - Compliance Order
 RCRA - Resource Conservation and Recovery Act                              AO - Administrative Order
 SDWA - Safe Drinking Water Act                                                      CD     - Consent Decree
 CWA -Clean Water Act                                                       ACO - Administrative Compliance Order
                                                                            AOC - Administrative Order on Consent
                                                                            CACO - Consent Agreement Consent Order
                                                                            O      - Order
                                                                            CO     - Consent Order




                                                                                                  29
                                                                                                                                                                       Report No. 2001-P-00006
                                                       Audit of Compliance with Enforcement Instruments

                                                                                                   Appendix 3
                                                                                                   Page 1 of 5
                                       Program Summaries
Clean Air

                                  Under the 1990 Clean Air Act, as amended, the Office of Air and
                                  Radiation sets limits on how much of a pollutant can be in the air
                                  anywhere in the United States. Air pollution may damage trees,
                                  lakes, and the stratospheric ozone. Exposure to toxic air pollutants
                                  can increase risks of cancer, respiratory irritation, nervous system
                                  damage, and developmental problems in children.

Monitoring Actions	               Of the 19 cases reviewed, we found no evidence of the Air
                                  Programs’ monitoring efforts in five cases and seven cases did not
                                  show any evidence of monitoring around the due dates.11 Because
                                  the monitoring efforts were not always sufficient to ensure full
                                  compliance, there was no evidence that 9 of 19 (47%) violators
                                  complied or timely complied with the enforcement instruments. For
                                  one additional case, we could not determine if milestone dates were
                                  missed. As a result, both violations of the instrument and the
                                  original violations potentially continued for up to six months for
                                  those violators who complied late and longer for those facilities
                                  where information was lacking.

Further Actions	                  Clean Air Programs in the three regions took further enforcement
                                  actions in two of nine cases (22%) where there was no evidence of
                                  compliance or violators did not timely comply with instrument
                                  requirements. Of the remaining seven cases, five violators
                                  continued in noncompliance for up to six months, and there was no
                                  evidence that two had complied at the time of our review. Of those
                                  seven cases, four included significant violations. In addition to
                                  those seven cases, we could not determine if milestone dates were
                                  missed in one case, therefore EPA would not be able to judge
                                  whether or not further actions were needed.



        11
             In fiscal 1999, the Region 5 Air Program began using a Lotus Notes based system for tracking and
monitoring compliance with instruments. This system, which reflects actions that are required for each case and
those that are past due, should help Region 5 to better monitor instrument requirements.

                                                       30
                                                                                       Report No. 2001-P-00006
                                           Audit of Compliance with Enforcement Instruments

                                                                                 Appendix 3
                                                                                 Page 2 of 5

                         Regions included warning language in 12 of 19 (63%) enforcement
                         instruments reviewed to describe penalties violators may have to
                         pay for failure to comply. However, EPA did not assess those
                         penalties where there was no evidence of compliance or violators
                         did not timely comply. EPA may also refer violations of
                         instruments to DOJ. Region 5 used this process to take action
                         against two facilities, one that complied late and one that had not
                         complied. Case files did not show whether regional staff
                         considered taking further actions or supporting why further actions
                         were not pursued in the other seven cases.

Resource Conservation and Recovery

                         The 1976 Resource Conservation and Recovery Act gave EPA the
                         authority to control hazardous waste, including its generation,
                         transportation, treatment, storage, and disposal. RCRA also set
                         forth a framework for managing non-hazardous waste. RCRA
                         violations may harm water supplies, groundwater, aquatic life, and
                         vegetation. Exposure to waste contaminants can increase the risks
                         of cancer, nervous system damage, and internal organ damage.

Monitoring Actions	      There was no evidence of RCRA Programs’ monitoring in 2 of the
                         13 cases reviewed and 2 cases did not show monitoring around the
                         due dates. Because the monitoring efforts were not always
                         sufficient to ensure full compliance, there is no evidence that 6 of
                         13 (46%) violators complied or timely complied with the
                         enforcement instruments. As a result, both violations of the
                         instrument and the original violations potentially continued for up
                         to one month for those violators who complied late and longer for
                         those facilities where information was lacking.

Further Actions	         Regions did not take further enforcement actions in the six cases
                         where there was no evidence of compliance or where violators did
                         not timely comply, even though five included significant violations.
                         Of the six violators, four continued in noncompliance for up to one
                         month and there was no evidence that two had complied at the time
                         of our review.


                                          31
                                                                       Report No. 2001-P-00006
                                                        Audit of Compliance with Enforcement Instruments

                                                                                                     Appendix 3
                                                                                                     Page 3 of 5

                                   Regions included penalty warning language in 10 of 13 (77%)
                                   enforcement instruments reviewed. However, EPA did not assess
                                   those penalties where there was no evidence of compliance or
                                   where violators did not timely comply. Regional RCRA Programs
                                   may also refer violations of instruments to DOJ, but did not use this
                                   process to escalate any of the cases. Case files did not show
                                   whether regional staff considered taking further actions or
                                   supporting why further actions were not pursued.

Safe Drinking Water

                                   Under the Safe Drinking Water Act, the Office of Drinking Water
                                   sets national standards to protect the health of the 250 million
                                   people who get water from public water systems. These standards
                                   limit the levels of dangerous contaminants that are known or
                                   anticipated to occur in public water systems. Ingestion of
                                   contaminated drinking water can increase risks for kidney, intestine,
                                   or liver problems and may also delay the physical or mental
                                   development of infants and small children.

Monitoring Actions	                Regional Drinking Water Programs’ monitoring efforts were not
                                   evident in 6 of the 29 cases reviewed. Twenty-three cases did not
                                   show monitoring around the due dates. Because EPA did not
                                   always sufficiently monitor to ensure full compliance, there is no
                                   evidence that 20 of 29 (69%) violators complied or timely complied
                                   with the enforcement instruments. For one additional case, we
                                   could not determine if milestone dates were missed.12 Of those 21,
                                   both violations of the instrument and the original violations
                                   continued for up to 36 months past the deadlines for cases where
                                   facilities complied late and potentially longer for cases where
                                   information was lacking.




        12
           In addition to those 21 violators, 5 facilities’ instruments were terminated since regions determined the
instrument was not necessary.

                                                        32
                                                                                         Report No. 2001-P-00006
                                        Audit of Compliance with Enforcement Instruments

                                                                               Appendix 3
                                                                               Page 4 of 5

Further Actions	      Drinking Water Programs in the three regions took further
                      enforcement actions in 3 of 20 cases (15%) where there was no
                      evidence of compliance or violators did not timely comply with
                      instrument requirements. Of the remaining 17 violators, 11
                      continued in noncompliance for up to 36 months. Another facility
                      also complied late, but we were unable to determine the length of
                      noncompliance due to limited file documentation. As of our
                      review, there was no evidence that five other violators had taken
                      the actions necessary to comply with the instruments. All 17 cases
                      included significant violations. In addition to those 17 cases, EPA
                      did not know if milestone dates were missed for one case, and
                      therefore would not be able to judge whether or not further
                      enforcement actions were needed.

                      Regions included warning language in all 29 instruments reviewed.
                      However, of the 20 cases with compliance problems, EPA only
                      pursued penalties in three cases, all in Region 2. EPA may also
                      refer violations of instruments to DOJ. Region 2 used this process
                      to escalate two of the three penalty cases. The case files did not
                      document whether regional staff considered taking further actions
                      or supporting why actions were not pursued in the other 17 cases.

Clean Water
                      Under the 1977 Clean Water Act, the Office of Water regulates
                      pollutant discharges to United States waters. Continuing violations
                      could be toxic to aquatic and human life; affect wildlife habitats and
                      migratory paths for birds; and alter the flow characteristics of
                      creeks, streams, and storm sewers.

Monitoring Actions	   There was no evidence that Clean Water Program staff monitored 8
                      of the 61 instruments reviewed and 12 cases did not show
                      monitoring around the due dates. Because the programs did not
                      always sufficiently monitor to ensure full compliance with
                      instruments, there is no evidence that 27 of 61 (44%) violators




                                        33

                                                                    Report No. 2001-P-00006
                                                           Audit of Compliance with Enforcement Instruments

                                                                                                        Appendix 3
                                                                                                        Page 5 of 5

                                     complied or timely complied.13 For two additional cases, we could
                                     not determine if milestone dates were missed. As a result, both
                                     violations of the instrument and the original violations continued for
                                     up to 30 months past the deadlines for cases where facilities
                                     complied late and potentially longer for those cases where
                                     information was lacking.

Further Actions	                     Clean Water Programs in the three regions took further
                                     enforcement actions in five cases, one in Region 2 and four in
                                     Region 5. Of the remaining 22 violators, 10 continued in
                                     noncompliance for up to 30 months. Another facility complied late,
                                     but we were unable to determine how long it was in
                                     noncompliance. At the time of our review, there was no evidence
                                     that 11 violators had taken the actions necessary to comply with the
                                     instruments. Of those 22 cases, 13 included significant violations.
                                     In addition to those 22 cases, we could not determine if milestone
                                     dates were missed in 2 cases, therefore EPA would not be able to
                                     judge whether or not further actions were needed.

                                     Regions included warning language in 57% (35 of 61 cases) of the
                                     enforcement instruments. However, EPA only assessed penalties
                                     in one case, in Region 2. EPA may also refer violations of
                                     instruments to DOJ, which Region 5 did in four cases. In Region 2,
                                     EPA’s threat of referral was incentive enough for one facility to
                                     comply. Case files did not show whether regional staff considered
                                     taking further actions or supporting why further actions were not
                                     pursued in the other 22 cases.




        13
              In addition to those 27, two facilities did not have to comply since they never received the enforcement
instrument.

                                                          34
                                                                                           Report No. 2001-P-00006
                                              Audit of Compliance with Enforcement Instruments

                                                                                          Appendix 4

                                                                                          Page 1 of 13



           UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                           WASHINGTON, D.C. 20460

                                         MAR 23 2001

                                                                     OFFICE OF
                                                                 ENFORCEMENT AND
                                                               COMPLIANCE ASSURANCE



MEMORANDUM

SUBJECT:         OECA Response to Office of Inspector General Draft Audit Report:
                 “Compliance With Enforcement Instruments”

FROM:            Sylvia K. Lowrance
                 Acting Assistant Administrator

TO:              Kimberly O’Lone
                 Audit Manager, Northern Audit Division
                 Office of the Inspector General

          The Office of Enforcement and Compliance Assurance (OECA) has reviewed the draft
report entitled, “Compliance With Enforcement Instruments.” OECA appreciates the effort
expended by your office to develop the findings and suggestions in the report on a subject - the
effective tracking and enforcement of compliance requirements in enforcement instruments - of
mutual concern to the Inspector General (IG) and OECA. We appreciate the opportunities you
provided to us to submit Assistant Administrator Steven Herman’s July 17, 2000 comments on
the initial version of the report, respond on November 29, 2000 to questions from your staff on
those comments, and discuss the draft Report with your staff at the February 27, 2001 exit
conference. It is apparent that you put considerable effort into developing your recommendations
and made it a priority to promote effective communication between our offices throughout the
process.

          The attached document responds to the recommendations in the draft Report. It
documents steps OECA and the Regions have already taken to address the IG’s concerns, as well
as planned future actions. As explained in the attachment, while OECA disagrees with some of
the analysis and recommendations in the draft Report, we acknowledge that OECA and the
Regions need to do more to improve how we track and enforce violations of compliance
requirements in enforcement instruments. While the steps proposed in this response are not
identical to the draft Report’s recommendations in every respect, we believe they will




                                              35

                                                                              Report No. 2001-P-00006
                                       Audit of Compliance with Enforcement Instruments

Note: The original response was signed by Michael M. Stahl for Sylvia K. Lowrance.




                                       36

                                                                      Report No. 2001-P-00006
                                               Audit of Compliance with Enforcement Instruments

                                                                                      Appendix 4
                                                                                      Page 2 of 13

                                               -2-

successfully address the issues and concerns you have identified.

        The comments OECA is submitting today incorporate the views of our Office of
Regulatory Enforcement (ORE), Office of Compliance (OC), and Office of Planning, Policy
Analysis, and Communications (OPPAC), and were developed with Regional input. OECA’s
comments are addressed primarily to the broader policy and management issues and
recommendations in the report. We are also attaching thoughtful comments from Region 2 with
which we concur. Regions 5 and 6 do not intend to submit separate comments. Please address
any questions concerning our response to OECA’s OIG Audit Liaison, Gregory Marion, at 202-
564-2446.

Attachments

cc: 	Michael Stahl
     Eric Schaeffer
     Mary-Kay Lynch
     Connie Musgrove
     Bruce Weddle
     Frederick Stiehl
     Jon Silberman
     Walter Mugdan (R2)
     Gail Ginsberg (R5)
     Lawrence Starfield (R6)
     Jori Spolarich (OIG)




                                               37
                                                                           Report No. 2001-P-00006
                                               Audit of Compliance with Enforcement Instruments

                                                                                           Appendix 4
                                                                                           Page 3 of 13

                      OECA RESPONSE TO OIG DRAFT REPORT:

                        “Compliance with Enforcement Instruments”

The OIG draft Report contains a number of recommendations and suggestions for action that
OECA and the Regions could take to address the concerns raised in the body of the Report. In
response to the draft Report, OECA and the Regions have taken, or will take, the following
actions. The list is followed by a detailed response to each of the IG’s recommendations.

Summary of OECA and Regional Actions in Response to OIG Draft Report:

1.	     For judicial settlements, beginning in FY 2002, OECA intends to have the Regions
        update the Consent Decree Enforcement Tracking Subsystem (CDETS) in DOCKET, or
        appropriate alternative Regional database(s), to reflect key schedules/milestones for terms
        of compliance and actions taken to ascertain continued compliance.

2.	     When the Integrated Compliance Information System (ICIS) is in place, OECA will
        expect the Regions to use this system to track enforcement instrument compliance.

3.	     OECA will clarify, in our Accomplishment Reports and other similar documents, that
        the information we provide on enforcement outcomes are estimates, made at the time of
        settlement, assuming the injunctive requirements in the underlying enforcement
        instruments are implemented.

4.	     OECA determined that the requirements in our 1990 Judicial Consent Decree Tracking
        and Followup Directive (Directive), Manual on Monitoring and Enforcing Administrative
        and Judicial Orders (Manual), enforcement response policies, and penalty policies
        provide sufficient and appropriate criteria for the Regions to use to track compliance
        milestones, analyze violations of judicial and enforcement instruments, and prioritize
        them for response. However, OECA also determined a need to improve familiarity with,
        and implementation of, the Manual and Directive.

5.	     In response to this determination, OECA asked the Regions to develop revised Region-
        specific enforcement instrument compliance tracking and enforcement plans, covering
        both judicial consent decrees and administrative orders, that address the need for
        effective tracking, enforcement, and documentation. The attachments to this response
        include all ten plans.

6.	     While OECA determined that new guidance is not needed at this time, we will
        reconsider this finding at the end of the fiscal year based on how well the revised
        Regional implementation plans are working. If new or additional guidance is needed,
        OECA, working closely with the Regions, will ascertain what is required, and develop
        and issue such guidance.



                                               38
                                                                                Report No. 2001-P-00006
                                               Audit of Compliance with Enforcement Instruments

                                                                                           Appendix 4
                                                                                           Page 4 of 13

                                               -2-

7.	     In a February 8, 2001 memorandum, signed by the Directors of ORE and the Office of
        Site Remediation Enforcement (OSRE), to the Regional Counsel, Regional Enforcement
        Division Directors, and Regional Enforcement Coordinators (attached), OECA
        reminded the Regions of the need to be familiar with, and follow, the Manual and
        Directive.

8.	     OECA further stressed the importance of complying with the Directive and the Manual
        in the OECA-Regional Senior Management Conference Calls for January and March,
        2001.

8.	     OECA will include the IG’s Report, its findings, and EPA’s responses to it as an agenda
        item in the upcoming April 5, 2001 National Enforcement Meeting. This meeting will
        be attended by senior legal enforcement managers from ORE, OC, the Regions, and the
        Department of Justice (DOJ).

9.	     The Acting Assistant Administrator, Acting Deputy Assistant Administrator, and other
        OECA program managers will raise compliance with enforcement instrument tracking
        and enforcement as a discussion issue during their regularly scheduled, frequent visits to
        each Region to review performance, address major policy issues, and identify needs for
        technical assistance.

Detailed Response to IG Recommendations in Draft Report:

Recommendations addressed to the Acting Assistant Administrator for Enforcement and
Compliance Assurance:
1.	     Establish a performance measure for ensuring that facilities under a formal
        enforcement action return to compliance in accordance with the schedule contained
        in the final order or decree.
          On page 6, the auditors recommend that OECA establish a performance measure to
ensure that facilities under a formal enforcement action return to compliance. We agree that
efforts to ensure the terms of compliance with consent decrees should be tracked as a
performance measure in connection with our handling of our judicial cases, which are already
tracked in the OECA DOCKET. Therefore, for judicial cases, we intend, beginning in FY 2002,
to have the Regions (and any Headquarters offices responsible for judicial cases) update the
Consent Decree Enforcement Tracking Subsystem (CDETS) in DOCKET, or appropriate
alternative Regional database(s), to reflect key schedules/milestones for terms of compliance and
actions taken to ascertain continued compliance. If a Region elects to utilize a Regional
database(s) for this purpose, we will stress the need for the Region to also ensure that the
applicable case fields in DOCKET are updated regularly to summarize the status of the case with
respect to consent decree tracking and enforcement. This approach should provide an acceptable
level of uniformity, and Headquarters access to timely information on the status of Regional
efforts to track and enforce consent decree requirements. Additionally, the Agency is presently

                                               39
                                                                                Report No. 2001-P-00006
                                              Audit of Compliance with Enforcement Instruments

in the process of developing a multimedia compliance information system, the Integrated




                                              40

                                                                              Report No. 2001-P-00006
                                                 Audit of Compliance with Enforcement Instruments

                                                                                               Appendix 4
                                                                                               Page 5 of 13

                                                 -3-

Compliance Information System (ICIS). This system is expected to provide a uniform Regional
platform for recording all aspects of enforcement activity, from compliance monitoring to
enforcement actions to return to compliance. At such time as ICIS is in place, the Regions will
be expected to use this system to track enforcement instrument compliance.
          We utilize this approach to tracking judicial actions because they tend to be highly
significant due to the injunctive relief they require, and in view of the United States’ obligation to
the Courts to ensure that court orders are satisfied or referred for contempt proceedings and/or
stipulated penalties collected where due. As a practical matter, we are able to do so, despite
resource limitations, because the total number of such cases is a relatively small subset of our
total case docket. Administrative actions, by contrast, are much more numerous, generally
smaller in size, and on average require less complex injunctive relief. Balancing these factors
together with our resource limitations is why, historically, we have not routinely tracked
administrative actions identically to judicial cases and are not proposing to do so now.
          In reviewing this and the other recommendations in the draft Report, an important
general consideration for OECA - one that we have emphasized repeatedly to the IG in
connection with this and other completed or ongoing audits - is OECA’s obligation, as national
program
managers for enforcement and compliance, to balance our numerous statutory obligations, GPRA
requirements, and program goals and priorities so as to best protect human health and the
environment from noncompliance with statutory and regulatory requirements. To put these
obligations in perspective, consider that our latest efforts to update our numbers on the size of the
environmental regulatory universe subject to the statutes and rules administered by EPA suggests
that the enforcement and compliance assurance program has responsibility for assuring the
compliance of approximately 41 million entities. Compliance data is maintained for
approximately 600,000 of these facilities. Inspecting, enforcing against, and following up on the
compliance and performance of this large a universe necessarily requires us to make hard
choices, on a daily basis, regarding our priorities for a wide range of activities, including
tracking, monitoring, performance measurement, and database management and maintenance.
          It is in this context that, in our view, it is not a desirable or realistic goal for EPA’s
enforcement program - either for measuring performance or allocating compliance and
enforcement resources - to adopt a performance measure for judicial or administrative
enforcement instruments along the lines of the draft objective cited in the draft Report at page 5,
viz., “ensure that 100% of regulated facilities under a formal enforcement action return to
compliance in accordance with the schedule contained in the final order or decree.” Designing a
system aimed at perfection in this area would require seriously overbuilding the system, with
significant opportunity costs. While in theory OECA could perhaps generate such a system, this
would not promote environmentally beneficial outcomes because it would require us to spend
huge sums of money and time chasing small gains at the expense of other pressing priorities.
This is why OECA rejected that draft performance measure when we finalized our Strategic Plan.
Given this history, we question whether it is helpful even to reference the draft measure in the


                                                 41
                                                                                   Report No. 2001-P-00006
                Audit of Compliance with Enforcement Instruments

draft Report.




                42

                                          Report No. 2001-P-00006
                                               Audit of Compliance with Enforcement Instruments

                                                                                           Appendix 4
                                                                                           Page 6 of 13

                                               -4-


2.	     Identify a more accurate method for reporting, including verifying and validating,
        the actual accomplishments which result from EPA’s enforcement activities.
         OECA agrees with the Inspector General that OECA can more accurately represent and
qualify expected outcomes from the enforcement actions reported in our Accomplishment
Reports and other similar documents so as to better represent that the information we provide are
estimates, made at the time of settlement, assuming the injunctive requirements in the underlying
enforcement instruments are implemented. In response to the IG’s recommendation in this area,
OECA will clarify this point in future Accomplishments Reports so readers understand the
context and limitations of the data we provide in such documents.
          At the same time, however, we ask the auditors to amend the draft Report to clarify the
IG’s intent in offering the above recommendation. When ORE and OC staff met, on February
27, 2001, with their counterparts on the Inspector General’s staff, staff from OC asked whether
the IG’s intent was to suggest that OECA and the Regions reprogram our resources to fund
routine facility re-inspections, once enforcement actions are concluded, in order to make ambient
measurements, examine industrial construction, or otherwise determine actual measured results
in order to compare them to what presumably would need to be equally rigorous measurements
undertaken at the time of settlement. It was our understanding, as a result of the February 27
meeting, that this is not the IG’s intent. Rather, the intent is to ensure, in the context of
enforcement instrument tracking and enforcement, that OECA and the Regions pay sufficient
attention to enforcement instruments to assure compliance through appropriate means. These
might range from site visits to document reviews, exchanges of letters, or phone calls to confirm
that actions were taken. This understanding of the IG’s intent is supported by the statement at
page 19 of the draft Report, which describes how the auditors themselves determined whether
cases were being adequately monitored for purposes of the audit:
        “We considered a case as monitored if we saw any evidence of EPA actions, such as
        inspections, review of submitted documents, phone calls, or meetings with the violator.
        The only cases where we stated that there was no evidence of monitoring were those
        which did not show even one EPA action to follow-up on the facilities’ efforts to comply
        with the instruments.”
          We also request that the draft Report be amended to ensure that readers do not
misconstrue or misuse the Report to suggest that the IG found in this matter that OECA routinely
overstates the impacts of our compliance and enforcement programs. An example is the
introductory language in page i. This language appears sufficiently imprecise to us to risk
leaving readers with a misimpression that OECA knowingly or negligently misrepresents the
environmental benefits resulting from enforcement activities. It could also be read as suggesting
that the IG believes EPA should invest whatever resources are required to improve the accuracy
of case impact projections made at the time of settlement and/or document actual results once the
injunctive relief is in place. Our discussion with the auditors on February 27, however, led us to
understand that the IG’s intent is primarily to suggest that OECA needs to be clearer in our



                                               43
                                                                                Report No. 2001-P-00006
                                                  Audit of Compliance with Enforcement Instruments

                                                                                                Appendix 4
                                                                                                Page 7 of 13

                                                  -5-

public statements (especially the Annual Performance Report under GPRA) that cited pollution
improvements are estimates and projections which can be fully realized only if the underlying
compliance actions are completed.
         It has never been OECA’s intent, in developing estimates of the outcomes of
enforcement actions at the time of settlement, to implement unduly burdensome processes or
require
perfection. OECA has devoted a great deal of effort to promoting the use of our Case
Conclusion Data Sheets (CCDS) to generate and document this information, including the
development of our new Case Conclusion Data Sheet Training Booklet (106 pages), Quick Guide
for Case Conclusion Data Sheet (111 pages), and related CD Rom-based interactive training
materials. Still, OECA’s Enforcement Accomplishments Reports generally contain conservative
assessments of the emission reductions that are likely to be achieved through compliance with
both consent decrees and administrative orders. This is because, as our CCDS guidance
recognizes, in many instances, even when the actions violators must undertake in settlement will
produce real pollution reductions, if quantifying them would be impossible or unduly expensive
for technical or resource reasons, the results need not be quantified and OECA will not include
specific numbers in our reports. This results in accomplishment reporting that in many instances
understates the results we are actually achieving.
          A broad set of actions with results that are difficult to quantify fall in to the category of
“work practices,” as opposed to what are traditionally known as “end-of-pipe controls.” Others
involve injunctive relief that is primarily preventative. For example, consider the consent
decrees that EPA has negotiated with some refineries pursuant to OECA’s Petroleum Refinery
Strategy. These decrees contain provisions intended to vastly improve the defendants’ Leak
Detection and Repair (LDAR) programs. Under LDAR programs, refinery operators are required
to use monitoring instruments to detect gas leaks from process valves, flanges and pumps. If any
of these parts is leaking above a set threshold, it must be repaired as soon as possible. EPA
analyses have shown that these emissions can be very high, but every valve leaks at a different
rate, so calculation of emission reduction benefits from this program ranges from difficult in
some instances, to not possible in others.
         Another example are our Clean Water Act (CWA) actions against large municipalities.
These cases typically require major injunctive relief to eliminate sanitary sewer overflows (SSOs)
and combined sewer overflows (CSOs). The City of Atlanta, a defendant in one such action, has
an average of one SSO somewhere in their system every day with an average volume of 100 or
more gallons per overflow. In addition, the City has approximately 240 CSOs annually.
Atlanta’s rivers and streams have very high pathogen counts. A recent EPA survey of waterways
in Region 4 states, using six years of monitoring data, demonstrates that the urban streams in
metro Atlanta are polluted with the highest levels of sewage-related bacteria in the Southeast.
When the injunctive relief is completed, Atlanta will have eliminated nearly all SSOs and is
expected to reduce CSOs per year to 24. Discharges from the CSOs are expected to receive
primary treatment and disinfection and to meet Water Quality Standards. When one considers


                                                 44
                                                                                    Report No. 2001-P-00006
                                                Audit of Compliance with Enforcement Instruments

that the population served in Atlanta is 421,000 people, it becomes apparent that this case will




                                                45

                                                                                 Report No. 2001-P-00006
                                                Audit of Compliance with Enforcement Instruments

                                                                                            Appendix 4
                                                                                            Page 8 of 13

                                               -6-

have dramatically positive environmental consequences, yet the results are extremely difficult to
quantify for accomplishments reporting purposes.
         When a reliable accounting of emission and release reductions from cases such as these
cannot be generated, OECA does not believe it appropriate to include the reductions in the tally
of benefits, despite the fact that the benefits are known to be substantial. Input data needed to
develop a pollutant reduction calculation for CSOs, for example, include the amount of flow that
bypasses treatment before the control action; the amount of flow that bypasses treatment after
control action; and typical concentrations of the overflow; and concentrations of treated effluent
from the municipal wastewater treatment plant. To generate numbers sufficiently rigorous for all
cases, and enter them into our Accomplishments Reports would require, in some cases, technical
efforts on a scale normally reserved for rulemakings of general applicability. OECA and the
Regions simply do not have the budget or human resources to do this type of work at this time.
While the auditors did indicate that some Congressional staffers wished for OECA implement a
process to supply more rigorous after-the-fact measurements of actual environmental results
achieved through enforcement, again, our understanding is that this is not the IG’s
recommendation in this audit.

3.	     Issue basic guidance for (1) monitoring violators’ efforts to comply with
        enforcement instruments and (2) considering further enforcement actions
        when violators fail to comply with instrument requirements. Guidance should
        address, at a minimum: (1) Monitoring for compliance with enforcement
        instrument requirements; (2) Changing due dates for instrument requirements;
        (3) Documenting violators’ receipt of enforcement instruments to prevent them
        from claiming non-receipt of the instrument as a means to delay compliance; (4)
        Issuing compliance letters to facilities which have adequately completed all actions
        required in enforcement instruments; (5) Improving file documentation.
Recommendations addressed to the Regional Administrators:
4.	     Ensure that the regional program offices take steps, until OECA issues guidance, to
        adequately monitor violators’ actions and consider further enforcement actions,
        when appropriate.
         Because recommendations #3 and #4, in our view, are closely related, OECA will
respond to them together. OECA accepts the IG’s findings that OECA and the Regions can and
should do a better job of tracking and enforcing compliance with requirements in enforcement
instruments. Consequently, we are working with the Regions to implement concrete actions that
respond to the IG’s concerns. These include developing and implementing formal, written,
revised Regional enforcement instrument compliance tracking and enforcement plans that
address both judicial and administrative orders pursuant to the IG’s recommendation at page 13
of the draft report. While OECA is not proposing to issue new OECA guidance on enforcement
instrument tracking and enforcement at this time, we are reviewing the need for new guidance



                                               46
                                                                                Report No. 2001-P-00006
                                                 Audit of Compliance with Enforcement Instruments

                                                                                               Appendix 4
                                                                                               Page 9 of 13

                                                 -7-

with the Regions. ORE plans to reconsider whether such guidance is needed at the end of this
fiscal year based on how well the revised Regional implementation plans are working to improve
enforcement instrument tracking and enforcement.
         In analyzing our processes and procedures in response to the audit, OECA separated our
current strategy into three components:
         -1- substantive criteria for analyzing enforcement instrument violations and prioritizing
         them for response;
         -2- general requirements governing the tracking and enforcement of compliance with
         enforcement instruments by all of the Regions;
         -3- Region-specific processes and procedures to ensure that existing criteria and
         requirements for enforcement instrument tracking and enforcement are implemented.
Following are detailed descriptions of each component, and the steps we are taking, or proposing
to take, to improve our performance.
Substantive criteria for analyzing enforcement instrument violations and prioritizing them for
response:

          These criteria are set forth in EPA’s Enforcement Response Policies (ERPs), civil
penalty policies, and Enforcement Directives and Manuals. As the IG is aware, OECA has, over
the
years, issued numerous ERPS and civil penalty policies, both general, and for specific statutes,
media, or programs. OECA’s ERPs and civil penalty policies apply, in most cases, to judicial
and administrative enforcement, and are developed carefully in consultation with the Regions, in
some cases with additional input from other stakeholders such as the EPA program offices and
our state enforcement partners. OECA’s predecessor office, OECM, provided specific guidance
on how to prioritize judicial Consent Decree violations for response in the January 1990 Judicial
Consent Decree Tracking and Followup Directive (Directive). The Directive lists the following
factors and criteria for selecting an appropriate enforcement response to CD violations:
         “Environmental Harm Caused By Violation; Duration of Violation; Good Faith/Bad
         Faith (Compliance history); Deterrence Value; Ability to Respond; and Economic
         Gain.”
These factors are either identical to, or consistent with, those stressed in all of our ERPs and civil
penalty policies, i.e., they are the factors EPA’s statutes require us to consider in prioritizing for
response all regulatory violations.
         The decision whether to enforce against specific violations of enforcement instrument
provisions requires case-specific analyses of the seriousness of the violations, whether they are
ongoing, and whether they may result in significant environmental harm, as opposed to tracking


                                                 47
                                                                                   Report No. 2001-P-00006
                                                 Audit of Compliance with Enforcement Instruments

                                                                                               Appendix 4
                                                                                              Page 10 of 13

                                                 -8-

administrative milestones determined to be less significant in terms of the potential for harm. In
practice, this means that the Regions place a high priority on tracking and enforcing enforcement
instrument provisions that require significant injunctive relief or provide for Supplemental
Environmental Projects (SEPs). Tracking or reporting provisions that do not relate directly to
significant injunctive relief or SEPs receive a relatively lower priority. This practice is consistent
with our general and media-specific penalty policies, which provide guidance on how to
prioritize violations - including violations of CDs and orders - for response.
         The Directive, at page 7, provides:
              “Violations for which a decision not to take a formal action based on competing
         priorities might be appropriate would generally find the party on the positive side of the
         factors above (i.e., no or limited environmental harm from the violation, good
         compliance record, etc). Situations where the Agency might exercise its discretion not
         to take an action might include:
             - Late reporting with no environmental consequence and without a past pattern of
         delay or noncompliance.
           - Missed milestone, not a major requirement, with expectation they will be in
         compliance with/by the next milestone.
            - Violation of an interim limit, magnitude of the exceedence is minor, with
         compliance now achieved or anticipated shortly.”
Note that terms and phrases such as “pattern,” “not a major requirement,” “expectation,”
“exceedence is minor,” etc., are not further defined in the Directive. This reflects Agency policy
delegating to the Regions the responsibility for determining these issues on a case-specific basis,
taking into account the totality of the circumstances and competing national and Regional
compliance and enforcement priorities.
          It is OECA’s opinion that these existing criteria and policies provide sufficient and
appropriate substantive criteria for the Regions to use to analyze violations of enforcement
instruments and prioritize them for response. Consequently, OECA is not proposing to issue new
criteria in this area.
General requirements governing the tracking and enforcement of compliance with enforcement
instruments by all of the Regions:
        These requirements are set forth primarily in two EPA guidances, the Directive, and the
Manual on Monitoring and Enforcing Administrative and Judicial Orders (Manual), which
OECM (now OECA) transmitted to the Regions by memorandum dated February 6, 1990. The
two documents, among other things: divide tracking and followup responsibilities between the




                                                 48
                                                                                   Report No. 2001-P-00006
                                                  Audit of Compliance with Enforcement Instruments

                                                                                                 Appendix 4
                                                                                                Page 11 of 13

                                                  -9-

Offices of Regional Counsel and the Regional program divisions; emphasize the need for
adequate documentation of violations; establish database management criteria which allow each
Region flexibility to select an appropriate method based on its internal caseload and database
capabilities; require all currently due and overdue consent decree milestones to be extracted from
the Regional management system, and made available to staff and supervisors, on a not-less-
than-quarterly schedule; delegate to the Regions the authority to decide what followup actions, if
any, to take in response to violations; list factors and criteria to consider in prioritizing violations
for response; and require a decision not to take formal action to be made jointly by the Office of
Regional Counsel and appropriate Regional program division at the Branch Chief or higher
level.
         The Directive applies specifically to enforcement and tracking of judicial consent
decrees. The lengthier and more detailed Manual, however, applies to both judicial and
administrative enforcement. Assistant Administrator Steven Herman, in his July 17, 2000
memorandum to the Inspector General commenting on an earlier draft of the Report, noted,
among other things, that many policies and procedures the enforcement program relies on have
been in effect for some time, and that he did not see the need to update or reissue the Directive
and Manual because they remained appropriate and applicable.
         Both the Directive and Manual remain in effect today, and we are not proposing to
update, reissue, or augment them now. However, as communicated previously to the IG’s staff
by ORE, we determined that it would be appropriate to remind the Regions of the need to be
familiar with, and follow, the Directive and the Manual. We did so in a memo, signed by the
Directors of ORE and the Office of Site Remediation Enforcement (OSRE), dated February 8,
2001, addressed to the Regional Counsel, Regional Enforcement Division Directors, and
Regional Enforcement Coordinators (attached). The importance of complying with the Directive
and the Manual was also stressed in the OECA-Regional Senior Management Conference Calls
for January and March, 2001. The Acting Assistant Administrator, Acting Deputy Assistant
Administrator, and other program managers have agreed to raise compliance with enforcement
instrument tracking and enforcement as a discussion issue during their regularly scheduled,
frequent visits to each Region to review performance, address major policy issues, and identify
needs for technical assistance. Finally, OECA will identify the IG’s Report, its findings, and
EPA’s responses to it as an agenda item for the upcoming April 5, 2001 National Enforcement
Meeting, attended by ORE, OC, and DOJ senior legal enforcement managers.
          On page 13 of the draft Report, the IG notes with approval (“a positive step”) OECA’s
intent to remind the Regions of the need to comply with judicial consent decree tracking, but
states that “we believe OECA also needs to improve the tracking of administrative orders since
the majority of EPA’s enforcement actions are administrative.” Please note that the February 8
memorandum transmitted to the Regions does address both judicial and administrative tracking
and enforcement. It does so by, among other things, referencing both the Directive and the
Manual. Additionally, in response to the IG’s concerns and as discussed further below, ORE



                                                  49
                                                                                     Report No. 2001-P-00006
                                              Audit of Compliance with Enforcement Instruments

expanded its request for revised Regional tracking and enforcement implementation plans to
expressly include administrative actions, using the IG’s own definition of “enforcement




                                              50

                                                                             Report No. 2001-P-00006
                                                Audit of Compliance with Enforcement Instruments

                                                                                             Appendix 4
                                                                                            Page 12 of 13

                                                -10-

instruments” in the draft Report as our guide in this endeavor: “Any type of enforcement action
that EPA issued which included actions a facility was required to take. These enforcement
actions include: administrative orders, compliance orders, consent agreement consent orders, and
consent decrees.” Thus, while we continue to believe it is not appropriate to require identical
Regional procedures for tracking and enforcing requirements in judicial and administrative
enforcement instruments, we agree with the IG on the importance of having strategies in place to
address both and have acted accordingly.

         In addition, in the February 8 memorandum, ORE and OSRE solicited input from the
Regions as to whether modifications or updates to the Manual and/or Directive may be
appropriate in the future. Again, while OECA’s present intent is to address the issues and
concerns raised by this audit by significantly upgrading our implementation of the Manual and
Directive (because we believe the root cause of the IG’s concerns to be the inconsistent
implementation of already existing guidance), ORE intends to reconsider whether new or
additional guidance is needed at the end of this fiscal year. If experience demonstrates this to be
the case, OECA, working closely with the Regions, will ascertain what is required, develop and
issue the guidance.

Region-specific processes and procedures to ensure that existing criteria and requirements for
enforcement instrument tracking and enforcement are implemented:

           As discussed above, OECM (now OECA) transmitted the Directive and Manual to the
Regions in 1990. In the cover memorandum to the Directive, OECM directed each Region to
submit “a memorandum detailing the steps they have taken to implement the Directive.” Given
that -1- over a decade has now passed since these memoranda were prepared, and -2- OECA’s
analysis points to inconsistent implementation of the already existing guidance, ORE and OSRE
asked the Regions, in February 8, 2001 memorandum, to either resubmit their original Directive
implementation plans or edit them to reflect changed circumstances. Upon further consideration
of the IG’s concerns - particularly in connection with administrative enforcement instruments -
ORE re-contacted the Regions to ask for substantially revised implementation plans that include
processes and procedures for addressing administrative consent agreements and orders, in
addition to consent decrees. ORE further asked the Regions to ensure that the revised
implementation plans address the case file documentation problems noted in the draft Report,
i.e., the need to confirm, in the case files or elsewhere, whether and when requirements are
tracked, followup actions taken by the Region to confirm or rebut compliance, and the bases for
decisions not to respond formally to noncompliance where deemed inappropriate or unnecessary.

          The Regions responded by submitting the revised Regional enforcement instrument
tracking and enforcement plans attached to this response. Please note that the revised
implementation plans you receive today will likely be edited further in the future. As of the date
of this response, not all of the Regions had sufficient time to review and react to each others’
plans in order to amend them to adopt or incorporate “best practices” from other Regions.


                                                51
                                                                                  Report No. 2001-P-00006
                                                Audit of Compliance with Enforcement Instruments

                                                                                            Appendix 4
                                                                                           Page 13 of 13

                                               -11-

OECA’s initial review of the revised plans, however, suggests that they will be effective in
addressing the tracking and enforcement problems identified in the draft Report.

          When reviewing the revised implementation plans, please keep in mind that the Manual
and the Directive intentionally provide the Regions with significant discretion in designing and
implementing Region-specific enforcement instrument tracking and enforcement systems and
databases, taking into account each Region’s internal organization, procedures, and needs. As a
result, the revised implementation plans differ. For example, some Regions employ similar
approaches to enforcement instrument tracking throughout the Region, while in others, there is
more program-to-program variation. This is not a shortcoming in the system or an overlooked
matter, but rather reflects a conscious effort on OECA’s part to empower each Region to select,
develop, and implement the databases and systems it requires to best match and support its own
internal organizational structure and needs. Finally, please note that OECA does not require or
expect the Regions to use DOCKET to track the enforcement of administrative orders and
agreements. The Regions typically use DOCKET for tracking judicial consent decrees, but not
administrative actions, though the Directive itself provides each Region the flexibility to select
the most appropriate method of maintaining its own databases even for judicial actions. When
ICIS is implemented, it is expected that the Regions and OECA will be able to use this new
system to track enforcement instrument compliance.

5.	      Determine the status of those cases where files showed no evidence of violator
         compliance.

        Region 2's response to the draft Report is attached. OECA concurs with the views
expressed in the Regional response. Regions 5 and 6 did not develop separate Regional
responses, but will follow up on the Report’s findings.

Attachments




                                                52
                                                                                 Report No. 2001-P-00006
                                 Audit of Compliance with Enforcement Instruments

Note: The attachments to this response are not included in the report.




                                 53

                                                                  Report No. 2001-P-00006
                                                 Audit of Compliance with Enforcement Instruments

                                                                                                Appendix 5
                                                                                                Page 1 of 9

        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                            REGION 2



  DATE:            MAR 15 2001

SUBJECT:	          Region 2 Comments on OIG Draft Audit of
                   Compliance with Enforcement Agreements
                   Report No. XXXXXXX

  FROM:	           Herbert Barrack
                   Assistant Regional Administrator for Policy and Management

     TO:	          Sylvia Lowrance, Acting Assistant Administrator
                   Office of Enforcement and Compliance Assurance


 Region 2 comments on the above-referenced draft report emailed to Region 2 on February 20,
 2001, are provided as Attachment 1 to this memo.

 If you have any questions, please let me know or have your staff contact Scott Opis, Policy,
 Planning and Evaluation Branch, at (212) 637-3699.

 Attachments

 cc: H. Maletz, OIG




     Note: The original response was signed by Joann Brennan-McKee for Herbert Barrack.

                                                 54
                                                                                  Report No. 2001-P-00006
                                                 Audit of Compliance with Enforcement Instruments

                                                                                                Appendix 5
                                                                                                Page 2 of 9

                                                                                   Attachment 1
                         Region 2 Comments on OIG’s Draft Report
                          Compliance with Enforcement Instruments
General Comments
Region 2 concurs with the need to remind regional managers, program staff and attorneys of the
existing guidance concerning the monitoring of administrative and judicial consent decrees.
Since existing guidance and regional implementation procedures were developed prior to the
1996 regional reorganization, periodic redistribution of such guidance is a sound measure to
ensure consistent application across all Divisions with enforcement responsibilities. As noted in
our response to the recommendations, Region 2 has done this.
The Region also agrees that the 1990 Manual on Monitoring and Enforcing Administrative and
Judicial Orders offers a sound methodology for ensuring that all compliance obligations of
administrative orders are tracked, that any non-compliance with the terms of such orders are
appropriately evaluated for follow-up action, and that timely and appropriate follow-up action is
taken. It is important to recognize, however, that the timing and extent of follow-up action for
non-compliance with administrative orders is contingent upon the availability of both program
and legal enforcement resources. Since the pool of violations is dynamic and generates the need
for timely and appropriate enforcement actions, the number of formal actions requiring
monitoring and follow-up may not match the resources available for same. As a result, for cases
where adequate justification for delays is provided by the respondent and where compliance is
likely to be achieved, the Region may choose to forego additional action in order to focus on
more pressing program and regional priorities. In this vein, Region 2 strongly recommends that
OECA carefully consider the resource implications of the OIG’s recommendations when
responding to this draft report and in the issuance of final guidance.

Specific Comments
•	      Page 3, end of the first ¶: Here OIG writes “we found no evidence that facilities
        complied with 30 of 122 randomly sampled enforcement agreements....” The same
        formulation (i.e., “...we found no evidence that facilities complied...”) is also used
        elsewhere in the document (e.g., page 8, first bullet; page 11, ¶ 1; page 19, first full ¶;
        page 22, page 26, page 27, page 28, page 29). We have two concerns with respect to
        this formulation:
        •	       OIG categorized enforcement instruments as having had no EPA compliance
                 monitoring if there was no written documentation in the case file of at least one
                 activity such as inspection, review of submissions, phone calls or meetings.
                 (See
                 page 19, first full ¶.) Where this criterion yielded no evidence of EPA
                 monitoring, and there was no other written documentation confirming a
                 respondent’s status of compliance with an instrument, OIG apparently categorized
                 the instrument as having “no evidence of compliance.”

                                                55
                                                                                   Report No. 2001-P-00006
Audit of Compliance with Enforcement Instruments


1





56

                          Report No. 2001-P-00006
                                           Audit of Compliance with Enforcement Instruments

                                                                                        Appendix 5
                                                                                        Page 3 of 9

             This approach is appropriate to support one of the points in the Audit Report,
             namely that EPA enforcement staff should improve their written documentation
             of compliance monitoring activities. But the presentation in the draft Report
             seems to imply that all cases where there was “no evidence of compliance”
             were in fact instances of “non-compliance” with the terms of the instrument.
             For example, OIG’s discussion of “Determinations of Significance” (e.g., page
             20; and the Tables starting on page 22) would likely be understood to mean that
             OIG (a) determined that the respondents named in these instruments were in
             fact in violation of the terms of the instrument, and (b) determined whether
             such
             violations were significant or not. The strong implication is that all 66 cases
             listed in the Tables on pages 22-25 were instances where there was, in fact,
             non-compliance by the respondent with the terms of the instrument.
             We are not persuaded that this is a justifiable implication. For some of these

             cases there may be no evidence of non-compliance, just as there is no evidence of

             compliance. In other words, there may be no written documentation one way or

             the other. Thus, it is possible that the respondents in some of these cases were

             in

             fact in compliance with the terms of the instruments, but that there was no written

             documentation in the file to confirm that. Indeed, our review of the Region 2

             cases included in the OIG data set indicates there were several such situations. 

             And OIG itself makes a similar point when it challenges EPA’s use, in end-of-

             year enforcement accomplishments summaries, of information about the

             benefits anticipated from case conclusion instruments, which may or may not

             be actually achieved during the life of the instrument. (See, e.g., page 3, ¶ 1.) 

     •	      We appreciate and do not disagree with OIG’s recommendation that all
             compliance monitoring activities be documented in writing. However, we note
             that in some of the cases identified by OIG as having “no evidence of EPA
             monitoring,” although there may have been no written evidence in the case file,
             there is evidence (for example, oral evidence) that such monitoring activities
             did take place. For example, in a Clean Water Act case involving pump
             stations
             operated by the Puerto Rico Aqueduct and Sewer Authority (PRASA), there were
             conference calls and/or meetings with the respondent to discuss its non-
             compliance. Moreover, this particular instance of non-compliance (along with
             several others like it) was included in a major litigation referral sent to the
             Department of Justice (DOJ) in March 2000, a fact not reflected in the OIG
             Report.
•	   Page 4, ¶ 1. The draft Report says: “However, DOCKET data is incomplete” because it
     tracks compliance with judicial consent decrees, but not administrative instruments.
     The statement about the scope of DOCKET is accurate, but the word “incomplete” is
     misleading. It suggests that Regions have failed to use DOCKET properly. In fact, the


                                           57
                                                                            Report No. 2001-P-00006
                                   Audit of Compliance with Enforcement Instruments

Regions have never been asked to use DOCKET for tracking compliance with
administrative instruments, only judicial instruments.
                                    2




                                   58

                                                                 Report No. 2001-P-00006
                                             Audit of Compliance with Enforcement Instruments

                                                                                            Appendix 5
                                                                                            Page 4 of 9
     Most EPA guidance on monitoring compliance with enforcement instruments has
     focused primarily on two areas: judicial instruments specifically, and the tracking and
     collection of monetary penalties from both judicial and administrative instruments. For
     example, most of the 1990 Manual on Monitoring and Enforcing Administrative and
     Judicial Actions is devoted to the tracking of monetary penalties. With respect to
     documenting our compliance monitoring efforts, Region 2 has similarly concentrated on
     these two areas during the past years. This does not mean we have failed to monitor
     compliance with the injunctive elements of administrative instruments, but we have not
     focused on documenting those efforts as fully as we might have.
•	   The OIG Report suggests, on page 5, that an appropriate goal for EPA would be to
     ensure that “100% of regulated facilities under a formal enforcement action return to
     compliance in accordance with the schedule contained in the final order or decree.”
     (This was a proposed performance measure in a 1997 draft OECA Strategic Plan, but it
     was never adopted.) We agree that this would be a desirable goal in the abstract, but it
     is probably unrealistic. We must have the latitude and flexibility to assign our scarce
     enforcement resources among many competing priorities – monitoring compliance
     among regulated entities, development of new enforcement cases where violations are
     identified, prosecution of ongoing cases, and monitoring compliance with enforcement
     instruments. A substantially increased focus on the last of these four objectives will
     translate directly to a reduced focus on the remaining three. Balancing among these
     competing objectives is best done at the regional level, by the managers most familiar
     with the case load and
     the problems needing to be addressed.
•	   Page 7, ¶ 1: OIG should be asked to insert the word “always” after “did not” on the 3rd
     line. With respect to Region 2, at least, we did and we do “consider further
     enforcement actions when facilities did not comply or timely comply.” OIG’s own data
     tables confirm this: 16 of the 66 cases listed on the two tables are Region 2 cases. Of
     these, 9 (56%) are shown as having “Further Action (Penalty or Referral).”
     Later in the same paragraph OIG ascribes “ineffective monitoring” to a lack of guidance
     on how and when to monitor, and a lack of emphasis by OECA on monitoring. To the
     extent there have been instances of ineffective monitoring, we disagree that a cause has
     been a lack of guidance. The existing guidance is clear and complete. The same
     comment applies to the statement in the first sentence on Page 10 of the draft Report;
     and the first sentence after Table 3.2 on Page 11, which also ascribe inadequate
     monitoring by Regions to insufficient guidance. Again, we disagree; the guidance is
     sufficient.
     It is not clear whether OIG is suggesting that EPA’s compliance monitoring work has
     usually or generally been “ineffective.” If that is the suggestion, we disagree. The
     OIG’s own data suggests that in over 75% of the cases reviewed there was some
     monitoring.
•    Page 11, ¶ 1: Here, as on page 20, and in the Tables on pages 22-25, there is the
     implication that the violations characterized as “significant” are violations of the


                                             59
                                                                              Report No. 2001-P-00006
                                      Audit of Compliance with Enforcement Instruments

enforcement instrument. However, it is our understanding that the characterization of
“significant” refers to the underlying violation(s) which gave rise to the enforcement
                                       3




                                      60

                                                                      Report No. 2001-P-00006
                                            Audit of Compliance with Enforcement Instruments

                                                                                          Appendix 5
                                                                                          Page 5 of 9
     action in the first place, not to any potential violations of the enforcement instrument
     itself. If our understanding is correct, the Audit Report should be revised to make this
     clear.
•	   Page 13, Final ¶: As noted above, we disagree that additional guidance is necessary. We
     agree that regional staff should be reminded to comply with existing guidance, and that
     more emphasis should be placed on having staff document in writing the compliance
     monitoring activities they perform.
•	   Page 14, Item (4): In particular, we disagree with this recommendation. While such
     letters are sometimes appropriate (and are, in fact, often used in CERCLA cases in
     Region 2), we do not believe they should be used in all or even most regulatory cases.
     Even fairly extensive compliance monitoring activities (e.g., phone calls, review of
     submissions, or an inspection) may not reveal all instances of noncompliance by a
     respondent/defendant with the terms of an enforcement instrument. If a “compliance
     certification letter” is issued in such a case, and subsequently found to have been based
     on incomplete or even misleading information, the mere existence of the letter will
     complicate follow-up enforcement action.
     As noted above, requiring the issuance of compliance letters would create a significant
     resource burden as such letters would necessitate extensive compliance monitoring over
     some period of time. For example, if a facility were in violation of a record keeping
     requirement and the Administrative Order required the facility to keep the appropriate
     records required by the rule, additional reporting requirements would have to be
     imposed and then reviewed for some period of time so that the compliance letter could
     be issued. The additional expended resources thus used would cause a reduction in
     other enforcement activities or initiatives. Based on this, we do not believe that issuing
     compliance letters for these types of actions, would be the best use of the Agency’s
     limited resources. We strongly counsel against making use of such letters mandatory.
     At most, any new guidance should allude to such letters as an available mechanism
     which regions may wish to adopt in appropriate cases.
•	   Page 15, ¶ 1: We do not have any specific information on Technical Review Action
     Sheets, such as, what type of information is required to fill one out or how long this task
     will take to complete, therefore, we cannot comment on the specific form. However, we
     do not believe that such a form is necessary or the most efficient means of documenting
     compliance with the enforcement instrument. As is indicated in the 1990 Manual,
     accurate records of compliance milestone accomplishment should be maintained in the
     programmatic data base. It is inefficient to maintain large paper files for all
     administrative cases. For example, last fiscal year, the Region issued over 500 Orders to
     individual public water supply systems for failure to publish the annual Consumer
     Confidence Report. An electronic record of responses was maintained and the data base
     was updated. To complete over 500 forms would have been both impractical and
     inefficient in terms of resource utilization and our paper reduction goal.
•	   Page 16, “Recommendation”: As set forth above, we do not believe additional guidance
     is necessary as suggested in 3-1.


                                            61
                                                                              Report No. 2001-P-00006
Audit of Compliance with Enforcement Instruments

4





62

                          Report No. 2001-P-00006
                                            Audit of Compliance with Enforcement Instruments

                                                                                         Appendix 5
                                                                                         Page 6 of 9

•	   Page 17, 2nd bullet: We do not understand the statement that “DOCKET made it difficult
     to differentiate” between “Safe Drinking Water and Underground Injection Control
     (UIC)” programs. (We presume that OIG means the “Public Water Supply” program
     when it refers here to the “Safe Drinking Water” program.) DOCKET does distinguish
     between Public Water Supply and UIC programs.
•	   Page 19, first full ¶: The last two sentences of this paragraph indicate that OIG
     considers monitoring an instrument within a month before or after a milestone date to be
     a reasonable time frame. Existing EPA guidance for judicial Consent Decree tracking
     calls for monitoring to be done quarterly.
•	   Page 19, ¶ 2: The last line of this paragraph indicates that OIG considered lateness of
     even one day in meeting a milestone date to represent untimely compliance. This
     statement is obviously true, but may obscure the relative insignificance of most very
     short delays. We would usually not expect our staff to spend valuable time and effort
     pursuing a delay of, e.g., a couple of days, especially in a case where major milestones
     are being met on time or very close to it.
•	   Pages 22 - 25, Appendices: Region 2 has three general comments on the data in these
     tables, case specific comments follow.
     •	       In general there are no Region 2 cases involving judicial consent decrees listed on
              these tables; this tends to confirm that we are carefully monitoring compliance
              with such instruments and documenting, in writing, such activities.
     •	       As noted above, of the 16 Region 2 cases listed on the two tables (24% of the
              total), we are shown as having taken “Further Action (Penalty or Referral)” in 9 of
              them, or 56%. In fact, others were also the subject of further action, but after OIG
              completed its data collection activities.
     •	       The tables distinguish between “Compliance Orders” (COM), “Administrative
              Orders” (AO), and “Orders” (O). (See listing of Instrument Types at the end
              of each Table.) We do not understand the difference between these categories.
              A
              Compliance Order is, by definition, an administrative order, and both are
              “orders.” We recommend that OIG combine these three categories into one –
              either “COM” or “AO.”




                                             5


                                            63
                                                                             Report No. 2001-P-00006
                                               Audit of Compliance with Enforcement Instruments

                                                                                            Appendix 5
                                                                                            Page 7 of 9

Region 2's Case-specific Comments

•       CWA: Cases with No Evidence of Compliance
For Case No. 16, PRASA-Bayamon, Docket 98-0273, it is indicated that no further action has
been taken. However, this is not the case. As noted in Region 2's comments of May 19, 2000
and July 13, 2000, the Region prepared and submitted to the DOJ on March 30, 2000, an
Island-wide referral of PRASA pump stations. This Island-wide referral was consistent with the
Region's strategy to handle a large number of pump station Sanitary Sewer Overflow cases in the
most efficient manner available considering the need for penalties for past violations and the
development of collection system maintenance programs for each sewer jurisdiction to prevent
future overflows. The timing of the referral was dependent on the availability of both program
and legal resources necessary to prepare same. Once referred to DOJ, EPA cannot take further
enforcement action until a Court Order has been entered. This follow-up action should be noted
in the chart in Appendix 1.
For Case No. 17, PRASA Isabella, Docket 97-0280, Region 2 advised the OIG that the plant was
issued an order requiring a short-term return to compliance. PRASA responded that it did not
have adequate capabilities to meet permit Nitrogen requirements. EPA agrees with PRASA.
This issue should have been addressed at the time of the last permit reissuance and the limit may
in fact not be necessary to maintain water quality. Based on this, Region 2 informed the OIG
that it intends to evaluate the appropriateness of the limit during the permit renewal process
currently underway. If necessary, a companion Order will be issued with the renewal permit to
address the need for additional facilities. This follow-up activity should be noted in the chart.

•       CWA: Cases with Late Compliance
For Case Nos. 22-25, PRASA pump stations cases, the OIG chart indicates that no further
actions were taken and that compliance was achieved from one to six months late. As explained
above and in the Region’s prior responses, the Region is currently addressing pump station
maintenance deficiencies via an Island-wide judicial action, initiated on March 30, 2000. Region
2 decided to take judicial action in 1999 as a result of PRASA’s non-compliance or delayed
compliance with the Region's pump station initiative. This initiative involved administrative
actions issued in 1998. The chart in Appendix 2 should be revised to include these further
actions taken for Case Nos. 22 - 25.
For Case No. 26, Manuel Monsignor, Docket, 97-047, no further enforcement action was
necessary since the respondent submitted a storm water management plan which was revised
based on EPA review comments until it met all regulations. Upon implementation of the plan,
required controls were complete and the respondent was in compliance with the intent of the
Order. Region 2 believes that existing guidance provides ample discretion to the Region in
regard to whether to proceed formally or informally to obtain compliance.
•       SDWA: Cases with No Evidence of Compliance

                                                6


                                               64
                                                                                Report No. 2001-P-00006
                                                Audit of Compliance with Enforcement Instruments

                                                                                              Appendix 5
                                                                                              Page 8 of 9


For Cases No. 6 and No. 7, PRASA Vegas Arriba and PRASA Jaguas, Dockets 98-020 and
97-259, the OIG found no evidence of compliance. Although this is the case, the Region had
informed the OIG in our response to the earlier draft report that appropriate follow-up action had
been taken via a judicial referral in March 1999. As noted above, once referred to DOJ, EPA
cannot take further enforcement action until a Court Order has been entered. The referral
resulted in a judicial Consent Decree entered in January 2001.
For Case No. 8, Belleza - La Hoya, Docket 97-038, the OIG found no evidence of compliance.
As previously explained, there are 125 active orders to "non-PRASA" drinking water systems in
Puerto Rico. These orders involve small systems located in rural communities in need of
substantial financial and technical assistance. As a result, traditional enforcement actions are
ineffective in these cases, unless substantial compliance assistance and system financial
sponsorship are developed. EPA works with the Puerto Rico Department of Health in a joint
initiative to ensure such assistance is provided and attained in these cases. Where a commitment
to eliminate the system or connect it to a PRASA supply can be obtained, follow up Orders are
issued to establish the new compliance schedule.

•        SDWA: Cases of Delayed Compliance
For Case No. 12, Servicio de Agua, Docket 89-350, see Case No. 8 above. For Case No.11,
PRASA Humacao, Docket 98-345, see Case Nos. 6 and 7 above.

Region 2 Actions in Response to Draft OIG Report
The draft OIG Report recommends (page 16, 3-2) that regions ensure they are adequately
monitoring violators’ actions, and consider further enforcement actions when appropriate. In
Region 2, we believe that we have been monitoring violators’ actions adequately over the past
decade, although we fully recognize there are always opportunities for improvement. For
example, over just the last three fiscal years (FY-2000, -1999 and -1998) we had fourteen
referrals to DOJ for enforcement of judicial consent decrees. During the same period we had
nearly $6 million in stipulated penalty collections arising out of consent decree enforcement
actions, plus another $700,000 in penalty assessments for violations of injunctive relief
provisions of previous administrative orders. We also had four referrals for collection of
penalties owed under administrative orders but unpaid. A number of our other DOJ referrals
during this time period arose out of cases where Respondents had violated the injunctive relief
provisions of earlier administrative orders. (An example is our massive FY-2000 PRASA
Island-wide pump station referral, alluded to earlier.) These statistics reflect our continuing high
level of attention to enforcement instrument tracking and enforcement, both for judicial as well
as administrative actions.
Although the OIG Report addresses only CAA, CWA, RCRA and SDWA cases, and by
extension other regulatory enforcement cases, we recognize that Superfund cases also require the
same vigilant compliance monitoring.
                                                 7


                                                65
                                                                                  Report No. 2001-P-00006
                                              Audit of Compliance with Enforcement Instruments

                                                                                          Appendix 5
                                                                                          Page 9 of 9

The draft OIG report recommends (page 16, 3-3) that regions determine the status of those cases
where files showed no evidence of violator compliance. As indicated in our prior responses and
in the case specific comments above, we have already initiated this process and have made
compliance determinations in many cases. This process will be completed by September 30,
2001.

During the past several weeks, meetings have been held among Region 2 management and staff
to discuss the tracking and enforcement of Judicial and Administrative Orders. On March 10,
2001, Region 2's Regional Counsel composed a memorandum which memorializes these
discussions. This memo will also serve to initiate a reminder by management to all regional
enforcement staff about the importance of carrying out and documenting (in writing)
enforcement instrument compliance monitoring activities. A copy of that memorandum is
provided as Attachment 2.

Attachment




                                               8




                                              66
                                                                              Report No. 2001-P-00006
                                Audit of Compliance with Enforcement Instruments

Note: The attachment to this response is not included in the report.




                                67

                                                                 Report No. 2001-P-00006
                               Audit of Compliance with Enforcement Instruments

                                                                    Appendix 6
                                                                    Page 1 of 1

                   Audit Report Contributors

Northern Audit Division              Kimberly O’Lone

                                     Jori Spolarich

                                     James Clark

                                     Robert Evans

                                     Chad Kincheloe

                                     Mara Notbusch

                                     Lora Schaefer

                                     Ann Weiland


Central Audit Division               David Boyce

                                     Randy Holthaus

                                     Daniel Howard

                                     David Johnson

                                     Les Partridge

                                     Nancy Ronk

                                     Sandra Stafford


Eastern Audit Division               Ira Brass

                                     Gerald Bernstein

                                     Phillip Cleveland

                                     Frank Pelczarski


Mid-Atlantic Audit Division          Gary Sternberg


Headquarters Office of Audit         Ernie Ragland





                               68

                                                          Report No. 2001-P-00006
                                                 Audit of Compliance with Enforcement Instruments

                                                                                     Appendix 7
                                                                                     Page 1 of 1

                                      Distribution
Headquarters

      Assistant Administrator for Enforcement and Compliance Assurance (2201A)

      Agency Follow-up Official (2710A)

      Agency Audit Follow-up Coordinator (2724A)

      Audit Follow-up Coordinator, Office of Enforcement and Compliance 

       Assurance (2201A)

      Associate Administrator for Congressional and Intergovernmental Relations (1301A)

      Director, Office of Regional Operations (1108A)

      Associate Administrator for Communications, Education, and Media Relations (1101A)

      Headquarters Library (3404)


Regions

      Regional Administrators

      Regional Enforcement Coordinators

      Regional Audit Followup Coordinators

      Regional Public Affairs Offices


Office of Inspector General

      Inspector General (2410)

      Divisional Inspectors General for Audit





                                                 69

                                                                           Report No. 2001-P-00006
